<html>
<title> - EXAMINING THE THREAT FROM ISIS AND AL-QAEDA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                    EXAMINING THE THREAT FROM ISIS 
                              AND AL-QAEDA

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2020

                               __________

                           Serial No. 116-72

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
43-090 PDF               WASHINGTON : 2021                                
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
             Sandeep Prasanna, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
           
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Michael Morell, Former Acting and Deputy Director, Central 
  Intelligence Agency (CIA):
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Ambassador Tina Kaidanow, Former Acting Assistant Secretary of 
  State for Political-Military Affairs, Former Coordinator for 
  Counterterrorism, U.S. Department of State:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Mr. Thomas Joscelyn, Senior Fellow, Foundation for Defense of 
  Democracies:
  Oral Statement.................................................    16
  Prepared Statement.............................................    20


                    EXAMINING THE THREAT FROM ISIS 
                              AND AL-QAEDA

                              ----------                              


                        Wednesday, June 24, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:02 a.m., 
via Webex, Hon. Max Rose (Chairman of the subcommittee) 
presiding.
    Present: Representatives Rose, Jackson Lee, Langevin, 
Slotkin, Thompson (ex officio), Walker, and Green.
    Mr. Rose. OK, folks. Want to thank you all so much for 
coming together for this subcommittee hearing examining the 
threat from ISIS and al-Qaeda.
    I am going to start off with an opening statement, and then 
Ranking Member Walker will do so as well, and then we will go 
into a brief order of process. Then we can really get to what 
we want to do here, which is listen, to hear from our esteemed 
panel, which we are just overjoyed and so honored to have here 
with us here today.
    OK. I guess we are waiting for Ranking Member Walker. We 
will do that for a minute or two. He is apparently trying to 
log on.
    OK. Ranking Member Walker is on. Thank you, sir, for 
joining us. It is good to see you.
    Mr. Walker. Glad to be here, Mr. Chairman.
    Mr. Rose. All right. We will get going.
    OK. This hearing is held, as you all know, it is an on-
going global pandemic. The shifting of U.S. National security 
priorities to resurgence of ISIS and the al-Qaeda demonstrated 
endurance. Recent reporting has shown that actions by 
international terrorist groups like ISIS and al-Qaeda remain a 
persistent and pervasive threat to U.S. interests abroad and 
the homeland.
    This hearing will provide us with an opportunity to discuss 
the current threat picture from these groups, how they fit into 
our evolving National security challenges and policy challenges 
that the Federal Government faces and how we can effectively 
counter them. It is no secret that we are divided amongst many 
competing priorities right now. But as I am sure, judging by 
their testimonies that our witnesses will attest to, no matter 
how many competing priorities we are faced with, the threat of 
terrorism and the threat from ISIS and al-Qaeda does not 
recede; it only complicates our efforts to address them.
    ISIS and al-Qaeda continue to take advantage of vulnerable 
populations, distracted governments, spreading their 
propaganda, recruiting new members, taking advantage of safe 
havens. They surely--and this is one thing that I know many of 
us are going to hear about today is, how have they capitalized 
on the instability of COVID-19? It is also clear that this 
resurgence has not happened in a vacuum, and the geopolitical 
priorities of the American people are shifting.
    One thing that we would like to hear from today is, yes, 
what are the fights that we must continue, what are the areas 
in which we must show resilience, but what are the areas where 
we cannot and should not be chasing ghosts? What are the areas 
in which we maybe don't seek perfect stability? But on the same 
end, we do not see a threat to the homeland.
    It is clear as day that many of the American people are 
united by the fact that they want to see us invest at home. But 
as a New Yorker, I can tell you this, that the memory of 9/11 
lives on. Not just a memory of 9/11, but the memory of a myriad 
of other terrorist attacks that have occurred since then. How 
do we respect the will of the American people all the while 
keeping them safe?
    To move on, I also, and I know many of us share this, would 
love to hear about the importance of coalition building in this 
effort. How do we, not just proactively and robustly, but how 
do we efficiently and effectively fight the terroristic threat? 
Particularly, the jihadist terrorist threat. How do we fight it 
involving intelligence share, and how do we fight it involving 
partner forces? Then, how do we fight the terrorist threat of 
today, not just yesterday? We are certainly seeing a 
resurgence.
    In March, ISIS prisoners in Syria rioted; some appear to 
have escaped. In April, members of an ISIS cell in Germany were 
arrested after a plan to attack a U.S. Air Force base in the 
country. In May, a Florida man was arrested who planned and 
attempted to carry out a mass shooting in the name of the 
Islamic State. Days later, the suspect's sister was shot dead 
after attempting to stab a local law enforcement officer. Just 
last month, the Department of Justice released information that 
determined the terrorist attack on the Pensacola military base 
in December was connected with an al-Qaeda affiliate group in 
Yemen.
    In addition, we would also love to hear today how can we 
hold technology companies, particularly social media companies, 
accountable? How do we innovate in and around this space, 
understanding that the most likely threat we face comes from 
that of someone who has been radicalized on-line, often without 
traveling? What have we learned from the recent case in 
Pensacola about how jihadists and terrorists are communicating 
with al-Qaeda affiliates overseas?
    Nearly two decades after the September 11 attacks at home, 
we are at a crossroads in this rapidly-changing security 
environment. We have to seriously reevaluate and update 
America's approach to combatting terrorism. As a New Yorker and 
as a patriot and as someone who is honored to stand today, 
saying in a bipartisan manner, that we need to continue to 
fight terrorism at home and abroad.
    We thank the witness and the Members for being here today. 
I look forward to making progress on this important issue.
    [The statement of Chairman Rose follows:]
              Statement of Subcommittee Chairman Max Rose
                             June 24, 2020
    This hearing is being held amidst an on-going global pandemic, the 
shifting of U.S. National security priorities, the resurgence of ISIS, 
and al-Qaeda's demonstrated endurance. Recent reporting has shown that 
the actions by international terrorist groups like ISIS and al-Qaeda 
remain a persistent and pervasive threat to U.S. interests abroad and 
the homeland.
    This hearing will provide us with an opportunity to discuss the 
current threat picture from these groups, how they fit into our 
evolving National security challenges, and policy changes the Federal 
Government can take to effectively counter them as the Government's 
attention is divided among competing priorities. Abroad and at home, 
ISIS and al-Qaeda continue to take advantage of vulnerable populations 
and distracted governments to spread their propaganda, recruit new 
members, and establish regional safe havens. It is also no surprise 
that these groups have capitalized on the instability caused by COVID-
19. But this resurgence has not happened in a vacuum.
    These groups continue to exploit the administration's short-
sightedness and lack of strategic thinking to regroup and reinvigorate 
their operations. In Iraq alone, attacks from ISIS have rebounded--even 
increased steadily since mid-2019. According to a recent report by the 
U.N. Security Council, the Taliban continues to back al-Qaeda in 
Afghanistan despite reaching an agreement with the administration to 
draw down American troops.
    Beyond the Middle East, ISIS and al-Qaeda affiliates have also been 
exerting influence and even competing for dominance in West Africa. 
Their territorial claims threaten the stability of important regional 
partners and the gains American diplomats, trainers, and advisors have 
made over the last decade to strengthen the rule of law and bolster 
economic development across the continent.
    Diminishing the emphasis on dismantling terrorist networks in 
Africa will allow for safe havens to exist just as when Osama bin Laden 
operated al-Qaeda from Sudan in the 1990's. Additionally, I am deeply 
concerned that the administration effectively abandoned the Kurds, our 
allies in the Middle East, last year, and temporarily paused U.S. 
counterterrorism operations in the region earlier this year.
    Coalition building, effective diplomacy, and keeping our word--
these are all pivotal to the disruption of world-wide terrorist 
threats. I fear these actions have hurt our Nation's standing around 
the world, sending a signal to our current and future allies that the 
United States will break its commitments when convenient. We must do 
better. That starts with reassessing threats to the homeland as they 
evolve around the world.
    In March, ISIS prisoners in Syria rioted, and some appear to have 
even escaped, threatening our security and regional stability. In 
April, members of an ISIS cell in Germany were arrested after they 
planned to attack a U.S. Air Force base in the country.
    In May, a Florida man was arrested who planned and attempted to 
carry out a mass shooting in the name of the Islamic State. Days later, 
the suspect's sister was shot dead after attempting to stab a local law 
enforcement officer. Just last month, the Department of Justice 
released information that determined the terror attack on the Pensacola 
military base in December was connected with an al-Qaeda affiliate 
group in Yemen.
    Although Department officials stopped short of saying the al-Qaeda 
affiliate directed the attack, they admitted that the gunman 
coordinated with al-Qaeda in the Arabian Peninsula by sharing ``plans 
and tactics.'' We have since learned that gaps in our information 
sharing and vetting systems, as well a failure of current policies, 
resulted in the attack that took the lives of 3 U.S. sailors and 
injured 8 other Americans.
    Just a few days ago, the threat of jihadist terrorism and the 
threat of white supremacist terrorism intersected when we learned that 
a white supremacist U.S. Army Private shared Classified information 
about overseas troop movements with al-Qaeda, admitting that his goal 
was to kill as many U.S. service members as possible.
    Nearly 2 decades after the September 11 attacks at home, we're at a 
crossroads in this rapidly-changing security environment and need to 
seriously re-evaluate and update the American approach to combatting 
extremism. I look forward to a conversation discussing how the 
Government can effectively prioritize this threat amid competing 
priorities.

    Mr. Rose. I would like to now recognize the Ranking Member 
of this subcommittee, the gentleman from North Carolina, 
someone I sincerely respect and admire, consider a dear friend, 
Mr. Walker, for his opening statement.
    Mr. Walker. Thank you, Chairman Rose. I appreciate your 
passion about this. You have been relentless on this since Day 
1. This isn't just a political talking point on you; this is 
something from your heart, I admire that, and I want to applaud 
you and continue to support you to do this. I apologize also 
for being a couple of minutes late there.
    This hearing is important. While I wish we were meeting in 
person, I appreciate the opportunity to discuss the continued 
threat linked to Islamist terrorism.
    Al-Qaeda declared war on the United States in 1996, and 
followed up their words with the 1998 United States Embassy 
bombings in Kenya and Tanzania, the 2000 attack on the USS Cole 
and the direct attack on the homeland on September 11, 2001. 
From that, ISIS spawned from a split with al-Qaeda around 2013. 
The new organization implemented an even more brutal and 
violent ideology, killing and enslaving minority groups and 
beheading their hostages. Their message appealed to 30,000-plus 
foreigners--30,000--who traveled to join them, including over 
200 Americans.
    After years of persistent counterterrorism pressure, both 
terror groups have suffered major territorial and leadership 
losses. However, the terror threat did not remain overseas. The 
FBI has testified on multiple occasions that they have over 
2,000 open investigations between al-Qaeda and ISIS supporters 
across the United States.
    Over the past few years, we have seen a rise in competing 
threats that have resulted in a diversion of resources that 
risk creating an opening for terror organizations to regroup. 
There is no doubt that the threat posed by nation-states is 
increasing, particularly in cyber space. We have seen a rise in 
global White supremacy extremism and domestic terrorism.
    I applaud the Trump administration for recognizing the 
challenge of emerging and competing threats in the 2018 
National Strategy for Counterterrorism and for focusing on the 
need to use counterterrorism to address these threats without 
losing focus on those posed by al-Qaeda and ISIS.
    As a Nation, we are also challenged with terrorism fatigue. 
After nearly 2 decades of military action in Afghanistan, the 
American public is ready for military forces to come home. 
While I share this goal, it is essential that we maintain the 
ability to deploy counterterrorism capabilities and gather 
necessary intelligence to prevent power vacuums while 
terrorists can regroup and plot.
    I am also very concerned about reports that al-Qaeda and 
ISIS-linked groups are expanding in Africa and Southeast Asia. 
We have seen this movie before. After 9/11, al-Qaeda was able 
to spread affiliate groups in Yemen, Somalia, and elsewhere, 
where they continued plotting, radicalizing, and carrying out 
attacks. Maintaining counterterrorism pressure and coordinating 
with the international community, we need to ensure that these 
new hotspots do not turn into operational safe havens.
    I look forward to hearing from the witnesses today about 
the current state of al-Qaeda and ISIS and their 
recommendations on how to implement a new strategy to counter 
the terror threat.
    Before closing, again, I want to congratulate Chairman Rose 
on the birth of his first child a few months ago in this new 
season. My best wishes to you and your family, Max. I 
appreciate you very much.
    Thank you, and I yield back time.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
                             June 24, 2020
    Thank you, Mr. Chairman for holding this hearing. While I wish we 
were meeting in person, I appreciate the opportunity to discuss the 
continued threat linked to Islamist terrorism. Al-Qaeda declared war on 
the United States in 1996 and followed up their words with the 1998 
United States embassy bombings in Kenya and Tanzania, the 2000 attack 
on the U.S.S. Cole, and the direct attack on the homeland on September 
11, 2001. ISIS spawned from a split with al-Qaeda around 2013. This new 
terror organization implemented an even more brutal and violent 
ideology, killing and enslaving minority groups and beheading hostages. 
Their message appealed to 30,000-plus foreigners who traveled to join 
them, including over 200 Americans.
    After years of persistent counterterrorism pressure, both terror 
groups have suffered major territorial and leadership losses. However, 
the terror threat has not remained overseas. The FBI has testified on 
multiple occasions that they have over 2,000 open investigations 
between al-Qaeda and ISIS supporters across the United States.
    Over the past few years, we have seen a rise in competing threats 
that have resulted in a diversion of resources that risk creating an 
opening for terror organizations to regroup. There is no doubt that the 
threat posed by nation-states is increasing, particularly in cyber 
space, and we have seen a rise in global white supremacy extremism and 
domestic terrorism.
    I applaud the Trump administration for recognizing the challenge of 
emerging and competing threats in the 2018 National Strategy for 
Counterterrorism, and for focusing on the need to use our 
counterterrorism tool kit to address these threats without losing focus 
on those posed by al-Qaeda and ISIS.
    As a Nation, we are also challenged with ``terrorism fatigue.'' 
After nearly 2 decades of military action in Afghanistan, the American 
public is ready for military forces to come home. While I share this 
goal, it is essential that we maintain the ability to deploy 
counterterrorism capabilities and gather necessary intelligence to 
prevent power vacuums where terrorists can regroup and plot.
    I am also very concerned about reports that al-Qaeda and ISIS-
linked groups are expanding in Africa and Southeast Asia. We have seen 
this movie before. After 
9/11, al-Qaeda was able to spread to affiliate groups in Yemen, 
Somalia, and elsewhere where they continued plotting, radicalizing, and 
carrying out attacks. Maintaining counterterrorism pressure and 
coordinating with the international community, we need to ensure that 
these new hot spots do not turn into operational safe havens.
    I look forward to hearing from the witnesses today about the 
current state of al-Qaeda and ISIS and their recommendations on how to 
implement a new strategy to counter the terror threat.
    Before closing, I also want to congratulate Chairman Rose on the 
birth of his first child a few months ago. My best wishes to you and 
your family.

    Mr. Rose. Thank you. Thank you, my friend. You know, it is 
the Uncle Ranking Member for my kid.
    Mr. Walker. All right. We will take it.
    Mr. Rose. All right. So now we are just going to--myself 
and the Ranking Member will just go back and forth very 
briefly. I apologize. This will take us a few minutes.
    So I thank the Ranking Member. With that, I will yield to 
the Ranking Member for purposes of a colloquy.
    Mr. Walker. Thank you, Mr. Chairman. Could you please 
explain our agreement on committee procedures during these 
remote proceedings?
    Mr. Rose. I thank the Ranking Member. Let me begin by 
saying that standing House and committee rules and practice 
will continue to apply during remote proceedings. Members will 
be expected to continue to adhere to the rules of the committee 
and the House.
    During the covered period as designated by the Speaker, the 
committee will operate in accordance with House Resolution 965 
and the subsequent guidance from the Rules Committee in a 
manner that respects the rights of all Members to participate.
    Technology we are utilizing today requires us to make some 
small modifications to ensure that the Members can fully 
participate in these proceedings.
    Mr. Walker. Thank you, Mr. Chairman. What could a Member 
expect should they encounter technical issues during a remote 
event?
    Mr. Rose. Well, first, to simplify the order of 
questioning, I will recognize Members for their 5-minute 
question based strictly on seniority, as determined by our 
subcommittee roster, a departure from our previous procedure. 
Members must be visible to the Chair in order to be considered 
present for purposes of establishing a quorum or for voting. 
Members should make every effort to remain visible on screen 
throughout the proceeding. If a Member is experiencing issues 
with their video stream, they may proceed with solely audio to 
ensure a connection, provided they have been identified 
previously.
    Again, in this hearing, Members are on mute. Members may 
unmute themselves in order to be recognized for purposes of 
their 5-minute questioning of the witnesses. At the conclusion 
of speaking, Members will be expected to then mute themselves 
to prevent excess background noise. In the event that a Member 
does not mute themselves after speaking, the Clerk has been 
directed to mute Members to avoid inadvertent background noise.
    Should a Member wish to be recognized to make a motion, 
they must unmute themselves and seek recognition at the 
appropriate time.
    Mr. Walker. Thank you, Mr. Chairman. I am making sure I am 
staying in order here with you there. I am looking here at my 
notes here. What should Members expect regarding decorum during 
a remote event?
    Mr. Rose. In the event the Member encounters technical 
issues that prevents them from being recognized for the 
questioning, I will move to the next available Member in the 
same party. I will recognize that Member at the next 
appropriate time slot, provided they have returned to the 
proceeding. Should a Member's time be interrupted by technical 
issues, I will recognize that Member at the next appropriate 
spot for the remainder of their time once their issues have 
been resolved.
    Mr. Walker. Thank you, Mr. Chairman. Finally, what should 
Members expect if a vote is called during a remote event?
    Mr. Rose. Members are reminded that they are only allowed 
to attend one virtual event at a time. Should they need to 
attend another committee's proceedings, please fully exit the 
hearing before entering another proceeding. No zoom cheating.
    Finally, all Members are reminded they are expected to 
observe standing rules of committee decorum for appropriate 
attire, you have a professional and apolitical background when 
they are participating in any remote event.
    Mr. Walker. All right. May it be on the record that it is 
the first time that I have ever heard the term ``zoom 
cheating.''
    With that, I yield back, Mr. Chairman.
    Mr. Rose. Also, just a few other things. In the event the 
witness loses connectivity----
    Mr. Walker. Yes.
    Mr. Rose [continuing]. We will reserve their time. That 
is--that is, I believe, all.
    So with that, I ask unanimous consent to waive committee 
rule 882 for the subcommittee during remote proceedings under 
the covered period designated by the Speaker under House 
Resolution 965.
    Without objection, so ordered.
    All right. The Chair now recognizes the Chairman of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for an opening statement.
    Is he still with us? Chairman?
    OK. Is the Ranking Member, Mr. Rogers, from the great State 
of Alabama, is he on?
    OK. So now, I am really honored to welcome our panel of 
witnesses. Our first witness is Mr. Michael Morell, former 
acting and deputy director of the Central Intelligence Agency. 
Mr. Morell spent more than 3 decades at the CIA, at the center 
of the Nation's fight against terrorism, our work to prevent 
the proliferation of weapons of mass destruction, our efforts 
to respond to trends that are altering international landscape. 
There is sincerely no major or minor terrorist incident in the 
last 20 to 25 years that he has not been front and center of 
combating. As someone who was in New York City on 9/11, I was a 
teenager at the time, I thank you, sir, for keeping us safe.
    Our second witness is Ambassador Tina Kaidanow, who 
recently left the Department of Defense where she was senior 
advisor for international cooperation to the under secretary 
for acquisition and sustainment. Ambassador Kaidanow is the 
former acting assistant secretary of state for political-
military affairs at the Department of Defense, former 
coordinator for counterterrorism at the Department of State. 
Ambassador Kaidanow also previously served as a deputy chief 
official at the U.S. Embassy in Kabul.
    Ambassador, thank you for your extraordinary service.
    Our third and final witness is Mr. Thomas Joscelyn, a 
senior fellow at the Foundation for the Defense of Democracies 
where he conducts research on how ISIS and al-Qaeda operate 
around the world. He has been described as having an 
encyclopedic knowledge of terrorist biography. Mr. Joscelyn has 
served as a trainer for the FBI's Counterterrorism Division, 
was the senior counterterrorism advisor to Rudy Giuliani in the 
2008 Presidential campaign.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statements for 5 minutes, beginning with the former 
acting director of the CIA, Mr. Morell. Additional Member 
statements will be submitted for the record.
                Statement of Chairman Bennie G. Thompson
                             June 24, 2020
    Today's hearing provides an opportunity to assess the current 
threat from al-Qaeda and ISIS. As we approach the 19th anniversary of 
the September 11 attacks, we must remain vigilant. ISIS remains a 
significant threat even as its ability to control physical territory is 
severely limited. And although al-Qaeda may be more dispersed, it is 
far from defeated.
    Recently, we have been reminded of the ability of ISIS and al-Qaeda 
to inspire and even direct attacks against the homeland and U.S. 
interests abroad. Acts of terrorism within our borders--like in 
Pensacola, Florida and Corpus Christi, Texas--show that our oversight 
and focus remain critical. These attacks in particular targeted the men 
and women of our military.
    We must do everything we can to prevent future attacks in the 
United States--especially on military bases. In cases like the 
Pensacola attack, which was apparently linked to al-Qaeda, this must 
include improved information sharing and reforming inadequate vetting 
procedures among Government agencies. But the threats we face are not 
just to our men and women in uniform--our communities continue to face 
the threat of violence fueled by propaganda from ISIS and al-Qaeda.
    That is one of the reasons I introduced H.R. 2476, the Securing 
American Nonprofit Organizations Against Terrorism Act of 2019, and was 
especially proud to see it become law. The program provides grants to 
nonprofits and faith-based organizations in both urban and rural areas 
to help secure their facilities against a potential terrorist attack. 
The new law authorizes the grant program for years to come.
    This is also an important time to note that DHS has been without a 
permanent Secretary for well over a year now. To plan for the future of 
the Department and stay one step ahead of the terrorism threats of 
today and tomorrow, the American people need a permanent Secretary. 
Counterterrorism involves a concerted effort that requires consistency, 
vision, and leadership from a confirmed Secretary.
    Before I conclude, I would be remiss if I did not mention that the 
committee's oversight efforts on extremism will continue despite the 
current administration's lack of effective partnership in providing 
documents and briefings in a timely manner. One of our greatest 
successes since September 11 has been acknowledging and addressing the 
need to share information between the various Government departments 
and agencies. I hope that the administration reevaluates their current 
strategy and chooses to work with Congress, including ensuring that 
policy makers are being informed of the most up-to-date threats.
    With that being said, I look forward to a frank conversation with 
the experts here today about the effectiveness of the current strategy 
and policies aimed to combat ISIS and al-Qaeda. Specifically, I hope we 
can shed light on emerging trends and identify new tools, policies, and 
procedures to combat terrorist actors at home and abroad, while 
upholding our American values.

STATEMENT OF MICHAEL MORELL, FORMER ACTING AND DEPUTY DIRECTOR, 
               CENTRAL INTELLIGENCE AGENCY (CIA)

    Mr. Morell. Good morning, Chairman Rose, Ranking Member 
Walker, Members of the subcommittee. It is great to be with you 
today. I think this hearing is extraordinarily important. I was 
honored to be invited. As your staff knows, I jumped at the 
opportunity.
    It is great to talk with you about the threats that our 
Nation still faces from al-Qaeda and ISIS. I really want to 
emphasize that word ``still,'' because I fear that as a 
country, that we are losing our focus on terrorism, in large 
part because most Americans think that al-Qaeda and ISIS have 
been defeated.
    Once we got Osama bin Laden, the idea was that al-Qaeda was 
defeated. Once we took the caliphate away from ISIS, the idea 
was that ISIS was defeated. I think there is a sense out there 
that, on the part of most Americans, that an attack on the 
homeland is no longer possible. I believe that those 
perceptions are wrong, and dead wrong. That is why I think this 
hearing is so vitally important.
    As you noted, I spent 33 years at the agency. I spent the 
first 15 of those focused on East Asia, focused on a different 
issue. But in those last 18 years in assignments of increasing 
responsibility, Mr. Chairman, I covered the whole world, right, 
but my focus was almost entirely on counterterrorism.
    There is a little paragraph in my testimony that I won't 
read through of all of my touch points with terrorism. You 
know, I am sort-of the Forest Gump of terrorism in terms of 
being in the wrong place at the wrong time. But each of those 
events that I--that I witnessed personally really seared into 
me the danger that terrorists pose and the importance of our 
counterterrorism work.
    You know, in short, I have lived and breathed it for the 
last 18 years of my career. It defined, it defined my career. 
That is even before 9/11, right? Because I went to work--I went 
to work for George Tenet in 1998, and I walked into a situation 
where he was obsessed with al-Qaeda. That is where I really 
learned about the group for the first time. So I was focused on 
it before 9/11.
    What I really want to spend a little bit of time on is the 
lessons that those 18 years taught me and what the implications 
of those lessons are for today. So there are 4 that I want to 
share with you.
    The first is that terrorism is a symptom. It is not a 
disease. I think that is very, very important for us to 
remember that. Until we address the disease, Mr. Chairman, I 
think we are going to be dealing with the symptoms. I think we 
are going to be dealing with the creation of terrorists and 
their actions for a long time to come. I have real doubts about 
whether we are going to be able, we and our partners, will be 
able to deal with that disease. So I really believe that my 
children's generation and my grandchildren's generation and 
maybe your son's generation is still going to be fighting this 
fight.
    At the end of the day, you can't capture and kill your way 
out of this. You know, that is an important aspect of keeping 
ourselves safe, but it is not going to solve the long-term 
problem.
    A second lesson learned is that--and this could well be the 
most important, Mr. Chairman--terrorist groups are very easy to 
degrade. Once you get the intel and once you get the military 
assets in the right place, they are extraordinarily easy to 
degrade. But they are also very easy to rebuild. We have seen 
it time and time again.
    Whether they are in degradation mode, whether they are 
being degraded, or whether they are in rebuild mode, depends on 
a lot of things. But the most important thing it depends on is 
the degree of counterterrorism pressure that is on the group. 
When that pressure is there, they tend to be in degrade mode. 
When that pressure is released, they tend to immediately shift 
to rebuild mode. I think the policy implication of that is 
pretty obvious to me.
    The third lesson learned is it is impossible, I think, to 
overstate the importance of a physical safe haven to a 
terrorist group--a place in which they can feel relatively safe 
and secure. A place from which they can strategize, train, 
plot, and launch attacks. It is, therefore, absolutely critical 
that we deny sanctuaries to these groups. When we don't do 
that, history is clear that the threat increases dramatically, 
including the threat to the homeland.
    Then the last--the last lesson learned is that the smartest 
of terrorists are creative and they are innovative. You know, 
there are not too many Muhammadatists. There are not too many 
that you would put in the category of extraordinarily bright 
and extraordinarily capable, but those that are are very 
dangerous.
    I think examples abound that include Khalid Sheikh 
Muhammad, right, who was the first to conceive of using 
aircraft as guided missiles. The folks in AQAP in Yemen who 
came up with innovative bomb designs, from the underwear bomb, 
from printer cartridge bombs, from nonmetallic suicide vests, 
to even experimenting putting explosive devices into human 
bodies through surgery, to the ISIS Hollywood-quality, Madison-
style--Madison Avenue-style quality propaganda that is a real 
danger to us and to the self-radicalization of Americans, as 
you know.
    Then I would put also in the creative category what AQAP 
just did at Pensacola, right. They found a way around the 
immigration defenses that we put in place after 9/11, and they 
did that consciously. It resulted in the first foreign-directed 
terrorist attack on the homeland since 9/11. That was just 
several months ago. I think the implication is we need to be 
equally imaginative in thinking about what they may be doing 
and try to get in front of them.
    Mr. Chairman, when I put all of these lessons together, I 
come to the strong conclusion that we need to stay focused on 
foreign terrorist groups. We need to continue and collect the 
best intelligence we can on their plans, intentions, and 
capabilities. We need, and I will emphasize this, working with 
our allies and partners, to continue to keep pressure on them 
and to make sure that they continue to be degraded.
    I think we also need to think about--this is very, very 
hard, and we should talk about it a little bit in the Q&A--but 
it is very, very hard, but I think we need to think about how 
do we--how do we play a role in getting at the disease rather 
than just dealing with the symptoms?
    In looking around the world, I have had, you know, many 
specific concerns. Southeast Asia, South Asia, and Middle East, 
Africa, but let me conclude my opening statement by pointing 
out two issues of particular concern to me.
    The first is ISIS in Iraq and Syria. Despite our 
destruction of the caliphate, which was critically important 
and needed to be done, and people who did that should be given 
an awful lot of credit for it, you all know that ISIS is on the 
rebound in the Middle East, in Iraq and Syria; that it is 
reconstituting. ISIS attacks in Iraq are on the rise, 2 years 
in a row now, including a significant one just a few weeks ago 
in Samarra, just an hour's drive from Baghdad.
    Even more worrisome, Mr. Chairman, and you mentioned this, 
German authorities recently arrested 4 Turkmen sent by ISIS to 
conduct an attack on a U.S. military facility in Germany. The 4 
had already acquired weapons, and they were in the process of 
acquiring explosives when they were--when they were arrested. 
This suggests to me that ISIS may be in the process of 
rebuilding its attack capability in Europe, which was a 
capability we saw in devastating effect in Paris in 2015 and in 
Brussels in 2016.
    The second thing I worry a great deal about is al-Qaeda in 
Afghanistan. The Taliban today is militarily and politically 
stronger than at any time since 9/11. I believe that the 
Taliban in its peace negotiations with the United States have 
told us exactly what we want to hear in order to encourage us 
to leave the country. I don't believe what they are saying 
about what their intentions are. In fact, I believe that their 
intention, which is absolutely achievable, is to overthrow the 
current Afghan government and reestablish a dictatorship based 
on Sharia Law.
    I also believe that the Taliban will provide safe haven to 
al-Qaeda, and that it will not do what is necessary to prevent 
al-Qaeda from again becoming a significant threat to the United 
States of America. The ties between the 2 groups are just too 
close. It is years and years of fighting side-by-side. It is 
years and years of shedding blood together. It is years and 
years of intermarriages of their children. These 2 groups are 
not, in my mind, separable.
    Mr. Chairman, to sum up, I believe strongly, and let me 
just emphasize this, I believe that we need to stay on the CT 
watch or we are going to be hit again. Can't emphasize that 
strongly enough.
    Mr. Chair, that concludes my opening remarks, and I look 
forward to you--to your and the committee's questions.
    [The prepared statement of Mr. Morell follows:]
                  Prepared Statement of Michael Morell
                             June 24, 2020
    Chairman Rose, Ranking Member Walker, and Members of the 
subcommittee, thank you for the opportunity to talk with you today 
about the threats that our Nation still faces from al-Qaeda and ISIS.
    I want to emphasize the word ``still'' because I fear that we are 
losing our focus on terrorism--in large part because most Americans 
think al-Qaeda and ISIS have been defeated and that a significant 
attack on the homeland is no longer possible. I believe those 
perceptions are wrong.
    I spent 33 years at the Central Intelligence Agency. I spent the 
first 15 years covering East Asian issues. The last 18 years, in 
assignments of increasing responsibility, I covered the entire world--
but my focus was on counterterrorism.
    As DCI George Tenet's executive assistant, I was the first person 
called by CIA's Operations Center when al-Qaeda attacked our embassies 
in Kenya and Tanzania in August 1998; as President George W. Bush's 
daily intelligence briefer, I was with him on 9/11 itself; as the 
senior focal point for liaison with the British analytic community, I 
was in London for Britain's 9/11, the subway and bus attacks there in 
July 2005; I was part of the CIA leadership team when we, the British, 
and Pakistanis foiled in August 2006 an al-Qaeda plot to blow up 10-15 
airliners over the Atlantic Ocean, and as CIA's deputy director, I was 
with President Obama when bin Ladin was brought to justice in May 2011.
    I lived and breathed counterterrorism. It is what defined my 
career, even in the 4 years before 9/11.
    My 18 years focused on CT taught me, what I believe, are 4 critical 
lessons about terrorism and counterterrorism. Allow me to share them 
with you.
  <bullet> Terrorism is a symptom; it is not the disease. And, until 
        the disease is addressed, we will be dealing with the symptoms. 
        And because I have significant doubts that the disease will be 
        dealt with, I believe that my children's generation and my 
        grandchildren's generation are still going to be fighting this 
        fight. At the end of the day, you can't only capture and kill 
        your way out of this.
  <bullet> Terrorist groups are easy to degrade, but they are also 
        easily rebuilt. And, whether they are in degradation mode or in 
        rebuilding mode depends on many factors--but the most important 
        is the degree of counterterrorism pressure on the group. The 
        policy implication of this lesson is, I think, obvious.
  <bullet> It is difficult to overstate the importance of a physical 
        safe haven to a terrorist group--a place in which they feel 
        relatively safe and secure and from which they can strategize, 
        train, plot, and launch attacks. It is therefore critical that 
        terrorist groups be denied a sanctuary. When we don't do that, 
        the threat to the homeland increases significantly.
  <bullet> The smartest of terrorists are creative and innovative. 
        Examples abound and include Khalid Sheikh Muhammad who 
        conceived of using aircraft as guided missiles; ISIS operatives 
        who built a Hollywood-quality and Madison Avenue-quality, on-
        line propaganda effort that resulted in ISIS-inspired attacks 
        in the United States; and, most recently, al-Qaeda in the 
        Arabian Peninsula finding a way around the border and 
        immigration defenses we put in place after 9/11, a success on 
        their part that resulted in the recent attack in Pensacola, the 
        first directed foreign terrorist attack on the homeland since 
        9/11. We need to be equally imaginative in defending ourselves.
    When I put these lessons together, I come to the conclusion that we 
need to stay focused on foreign terrorist groups; we need to continue 
to collect the best intelligence on their plans, intentions, and 
capabilities; and we need, working with our allies and partners, to 
continue to keep pressure on them and continue to degrade them. And, we 
need to be part of, to the best we can, an international effort to deal 
with the disease, not just the symptoms.
    In looking around the world, I have many specific concerns--ranging 
from South East Asia to South Asia and from the Middle East to Africa. 
Let conclude my opening statement by pointing out 2 issues of 
particular concern.
  <bullet> ISIS in Iraq and Syria.--Despite our destruction of the ISIS 
        caliphate, which was critically important, I believe ISIS in 
        the Middle East is on the rebound, that it is reconstituting. 
        ISIS attacks in Iraq are on the rise, including a significant 
        one just a few weeks ago in Samarra, just an hour's drive north 
        from Baghdad. Even more worrisome, German authorities recently 
        arrested 4 Turkmen sent by ISIS to conduct an attack on a U.S. 
        military facility in Germany. The 4 had already acquired 
        weapons and were in the process of acquiring explosives when 
        they were arrested. This suggests ISIS is rebuilding its 
        capability to attack Europe--a capability that resulted in both 
        the 2015 ISIS attack in Paris that killed 130 and wounded 413 
        and the 2016 attack in Brussels that killed 32, wounding over 
        300.
  <bullet> Al-Qaeda in Afghanistan.--The Taliban today is militarily 
        and politically stronger than at any time since 9/11. I believe 
        that the Taliban, in its peace negotiations with the United 
        States, have told us what we want to hear in order to encourage 
        us to leave the country. I believe that the Taliban's 
        intention, which is achievable, is to overthrow the current 
        Afghan government and reestablish a dictatorship based on 
        Sharia Law. I also believe that the Taliban will provide safe 
        haven to al-Qaeda and that it will not do what is necessary to 
        prevent the group from again becoming a significant threat to 
        the United States. The ties between the two groups are close. 
        One of the most important is al-Qaeda's extremely tight 
        relationship with the Taliban's Haqqani Group. Siraj Haqqani, 
        head of the group, is one of the deputy leaders of the Taliban.
    To sum up, I believe that we need to stay on the CT Watch or we 
will be hit again.
    Chairman, that concludes my opening remarks. I look forward to your 
questions.

    Mr. Rose. Mr. Morell, thank you so much again.
    I now recognize Ambassador Kaidanow to summarize her 
statement for 5 minutes.

STATEMENT OF AMBASSADOR TINA KAIDANOW, FORMER ACTING ASSISTANT 
   SECRETARY OF STATE FOR POLITICAL-MILITARY AFFAIRS, FORMER 
   COORDINATOR FOR COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ms. Kaidanow. Yes. Thank you. I think I will say just at 
the outset that I associate myself with everything you said and 
then some. We can talk a little bit more about some of those 
issues.
    Mr. Chairman, Ranking Member Walker, honorable Members of 
the subcommittee, first of all, it is an absolute privilege to 
be here and to talk to you today on this really critical issue 
of the potential threat that is coming still, as Mike says, 
from ISIS and from al-Qaeda, as well as from other groups that 
we are not discussing here today, but nevertheless, existing 
and pop up now with regularity all over the world.
    The esteemed panel of witnesses that you have assembled are 
all veterans of the U.S. Government effort to contain the 
threat of terrorism over the past years and to ensure the 
security of the homeland. All of them, and I as well, have 
grappled with I think what Mike was trying to, you know, to 
very well give you a picture of, and that is the key questions 
of how, No. 1, we can best protect our borders; No. 2, how we 
can enlist our overseas partners in the counterterrorism 
effort. Because, you know, this can't all be ours to do.
    Unfortunately, we don't have the resources. We don't have 
the ability--he mentioned the German attack. That's just one. 
But we find ourselves now sort-of subject to a lot of the 
resource issues. I will get to that in a minute. We don't have 
the resources on our own to be doing this, and nor should we, 
you know, portray it that way. We really need to give it to our 
partners as something that is both beneficial to us but 
beneficial to them as well.
    A number of the attacks that we see these days are not 
necessarily in the homeland, but, you know, they are associated 
with us because they happened in Paris, they happened in 
Brussels, they happen in places where our people are, and they 
happen in places where we care about what happened in 
democratic society.
    So a key question, as I said, is how we can, you know, 
enlist them in the counterterrorism effort. Then, finally, and 
I think we, you know, again, this deserves a little bit of 
thought, of how we can, or perhaps better said, whether we can 
do anything to destroy the absolute root causes of the 
terrorist problem. That question has consumed enormous amount 
of attention, certainly in the U.S. Government, and I think 
outside the Government as well.
    I wish I could tell you that I thought, you know, (A), 
there was an easy way to do that, and (B), we have made some 
progress in it. I will tell you personally, I don't think that 
is the case. I will come back to that in a second. But I think 
it is really important to try to reach and grapple with that 
question.
    When I became the State Department coordinator for 
counterterrorism, which is a statutorily-created position that 
is designed to centralize all Department efforts on terrorism 
and provide advice directly to the Secretary of State on those 
matters, as well as coordinate closely to the National Security 
Council with other important institutional players on CT and 
Homeland Security, it was the beginning of 2014. Quite frankly, 
nobody, perhaps other than some of our very good intelligence 
analysts sprinkled through the system, had really heard of ISIS 
as a feature of global terrorism.
    When I left the job in 2016 to become the acting assistant 
secretary for political-military affairs at the State 
Department, the world had changed pretty dramatically. In the 
span of about a year, a year-and-a-half, ISIS had gone from 
small regional leftover presence from the first Iraqi war to an 
absolute global threat, almost as virulent in its own way as 
the COVID-19 virus pandemic is now. Which I know is a strange 
kind of analogy, but it really has some, I think, some power, 
because the idea is we never knew that something like this 
could hit us in that way.
    So what was the difference? What made it so lethal, more 
lethal even when we think of al-Qaeda as a terribly, horribly 
lethal group. Of course, it is. But in a very interesting way, 
ISIS was something even very different, like a virus. I think 
the answer lies in the ISIS-created tools and methodology that 
had never been before been utilized as successfully by any 
other group, and that had to do with social media.
    Social media became what I would consider a vital hunting 
ground for signing up an ISIS-foreign component, which Mike 
mentioned--or I think actually the Chairman mentioned in his 
opening statement--and building support outside of Iraq and 
Syria. Absolutely, the Iraq and Syria problem remains. 
Absolutely ISIS is a feature there. But guess what, it is a 
feature pretty much everywhere. How did that happen? The West, 
and not only the West, but those countries where recruitment 
was especially large-scale, like Indonesia, like Jordan, other 
places, were absolutely completely unprepared for these new 
approaches and unable to muster that kind of flexibility to 
push back.
    Governments, for the most part, and I will just tell you 
certainly democratic governments, are neither comfortable nor 
effective as propaganda or counterpropaganda machines. They are 
just not good at it. You know, we always talk about how do we 
push back on that social media approach, how do we push back on 
ISIS' ability to recruit. It ain't so easy. You know, it is not 
so easy. You can't just hire a PR firm and then decide there is 
an inherent and underlying lack of trust in what we say as a 
Government all over the world. That, unfortunately, you know, 
it gives us a handicap right from the start.
    I think I am running out of time here, so I don't want to 
go too much longer. But I do want to say, again, there is this 
question of--Mike put it very well--what is the--what do we do 
now if we are going to address some of this? Well, the basic 
question comes back to resources. If we are going to do 
anything, whatever it is we do, we have to decide it is a 
priority for us strategically.
    At the outset of the administration, we relooked at all the 
things that we want to be doing, and we decided that, you know, 
for good or for bad, we have let our ability to, you know, 
contain or to stop the Russians and the Chinese all over the 
world from doing things we didn't want them to do. Great power 
competition has now become our No. 1 priority. That is fine. 
But that is going to take up resources that, unfortunately, 
used to be, at least in some measure, put against the terrorism 
problem.
    I think we are always going to have to constantly be 
reevaluating where are we with these issues and how much 
effort, resource energy, presence, you know--do we send drones, 
as I said, to Africa? Do we send the same drones to Iraq and 
Syria? Do we put them somewhere else entirely because we 
believe the Chinese in Southeast Asia are making inroads? What 
are we doing as a matter of priority?
    So it is not an easy question to answer, but it is 
something we really have to think about. That is why our allies 
and partners overseas become very important. Again, we can't 
fight this fight alone.
    I am going to, I think, stop there. I do want to say, 
again, I don't think there is an easy answer to the question of 
how do you stop terrorism at its root. I don't think it is a 
question of poverty. There is a lot of that that comes into 
this, you know, sort of CVE approach, the combating violent 
extremism. Maybe if we can, you know, create income and turn 
people in a different direction, we will be able to stop them 
from engaging in terrorist activities.
    I don't think it is those people. I don't think it is the 
people who, you know, are hungry. I think it is the people who, 
unfortunately, feel disaffected, they are sitting in, you know, 
Paris, they are sitting somewhere in Minnesota, they are 
sitting somewhere. It is a second-, third-generation problem. 
Their parents were poverty-stricken, very unfortunately came 
here, wanted a better life, established themselves that way, 
and now their children, unfortunately, are not feeling 
empowered for whatever reason. That is something we have to try 
and grapple with. It is not an easy thing.
    I am going to stop there. I know there will be questions. 
Thank you so much.
    [The prepared statement of Ms. Kaidanow follows:]
                  Prepared Statement of Tina Kaidanow
                             June 23, 2020
    Mr. Chairman, Ranking Member, Honorable Members of the 
subcommittee, it is a privilege to be here and speak with you today on 
the subject of examining the potential threat emanating from ISIS and 
al-Qaeda. The esteemed panel of witnesses you have assembled are all 
veterans of the U.S. Government struggle to contain the threat of 
terrorism over the past years and ensure the security of the homeland.
    All of them, and I as well, have grappled with the key questions of 
how we can best protect our borders, how we can enlist our overseas 
partners in the counterterrorism effort, and how we can--or perhaps 
better said, whether we can--do anything to destroy the root causes of 
the terrorist problem. That last question, in particular, has consumed 
a considerable amount of time and attention, and I wish I could say we 
have made great strides in eliminating the underlying sources of 
terrorism. Unfortunately, I don't think that is the case, but I will 
come back to that in a moment.
    When I became the State Department coordinator for 
counterterrorism, a statutorily-created position designed to centralize 
all Department efforts on terrorism and provide advice directly to the 
Secretary of State on these matters, as well as coordinate closely 
through the National Security Council with other institutional players 
on CT and homeland security, it was the beginning of 2014. Quite 
frankly, no one--perhaps other than intelligence analysts sprinkled 
throughout our system--had heard of ISIS as a feature of global 
terrorism. When I left the job in 2016 to become the acting assistant 
secretary for political military affairs at the State Department, the 
world had changed dramatically. In the span of about a year, ISIS had 
gone from a small regional leftover presence from the first Iraqi war 
to a global threat--almost as virulent in its own way as the COVID-19 
virus pandemic now.
    How did this happen? What was the difference between ISIS and other 
terrorist groups that had preceded it, even including al-Qaeda, which--
though highly dangerous and deadly--could not hold a candle to ISIS in 
its rate of expansion or degree of lethality (and in fact there were 
places in the world where al-Qaeda lost membership to ISIS as a 
competitor)? The answer lies in the ISIS-created tools and 
methodologies, which had never before been utilized as successfully by 
any other group. Social media became a vital hunting grounds for 
signing up an ISIS foreign component and building support outside of 
Iraq and Syria. The West--and not only the West, but those countries 
where recruitment was especially large-scale, like Indonesia or 
Jordan--were completely unprepared for these new approaches and unable 
to muster the flexibility to push back. Governments, for the most part, 
and certainly democratic governments, are neither comfortable nor 
effective as propaganda or counter-propaganda machines.
    That put us all on the defensive more than the offensive, and 
although we have gotten better at what we do, that is still largely 
where we find ourselves. We do a better job these days at protecting 
our borders and weeding out the individuals whose intentions may be 
problematic. We have convinced many of our neighbors and our European 
and other global allies that by enforcing their own borders and 
encouraging a more robust law enforcement effort, they benefit both 
themselves and the United States. We have stymied many attacks and 
worked with communities across the United States, including immigrant 
communities, to address the threat before it manifests itself in an 
attack on the ground.
    However, many issues remain. One is a resource problem--we can only 
have so many priorities at a time. At the outset of the administration, 
the White House and Defense Department drafted a new set of National 
Security and Defense Security strategy documents to guide our efforts, 
and it was decided that we had permitted our capabilities vis-a-vis the 
great powers--specifically Russia and China--to atrophy, necessitating 
a renewed push to regain our position in key parts of the world. The 
war on terrorism, though important, was no longer the first or only 
objective. All resource allocations are a function of strategic 
priorities and necessities, and this is something that I believe needs 
to be constantly reassessed. If we wish to push back on terrorism, we 
will need to consider whether, for example, AFRICOM should have a 
larger or smaller presence in the Sahel and elsewhere in the African 
continent, or whether those resources--drones, personnel, etc.--are 
more useful elsewhere.
    Finally, I return to the question of whether we can truly eliminate 
the sources of terrorism such that we would be able to wipe it out 
entirely and be able with clear conscience to move our resources to 
other efforts. I remain skeptical this is fully possible. As I 
indicated, governments are not good at public relations--they and their 
PR contractors are inherently subject to suspicion no matter how clever 
we think we are in getting out a message. Nor is the elimination of 
poverty or the creation of income-generating programs overseas likely 
to quash the terrorist impulse, which is the idea behind the money 
being thrown toward what's referred to as CVE or Combating Violent 
Extremism. It's most often not the desperately hungry or work-starved 
individual who turns to terrorism; it's the disaffected youth whose 
immigrant parents probably tried hard to provide him or her a better 
life and instead found their offspring attracted by the ISIS or 
extremist message. We need to be vigilant in finding and dealing with 
this small but potent group, here in the United States and overseas, 
and ensure we are able to stop any potential violence before it comes 
to us.
    I'm sure we'll have a stimulating conversation today, so I will 
stop here and allow the rest of the proceedings to move forward.

    Mr. Rose. Thank you so much, Ambassador Kaidanow, for your 
important testimony.
    I now recognize Mr. Joscelyn to summarize his statement for 
5 minutes.

  STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you, Chairman Rose, Ranking 
Member Walker, and other Members of the subcommittee. I greatly 
appreciate the invitation to testify today.
    Obviously, we are living in turbulent times, and Americans 
face many types of challenges. I think that is evident, in 
fact, most immediately for myself that, even though I have 
testified before Congress 21 times, this is the 21st time, this 
is the first time I have done so from my dining room as opposed 
to there in front of you. So, obviously, we are living in a new 
world here.
    But I do appreciate the fact you guys are taking the time 
to address al-Qaeda and ISIS, even with everything that is 
going on and all the threats that we face, because they both do 
remain active threats to the United States. I am going to point 
my comments today mostly toward al-Qaeda. The reason for that 
is I think there is more agreement on the ISIS side of the coin 
than there is on the al-Qaeda side of the coin. I want to sort-
of clarify a few things in my oral testimony.
    You know, ISIS grabbed headlines in 2014 with its caliphate 
claim and its over-the-top barbarism. That is understandable. 
But what I think is often overlooked and people don't realize 
is that al-Qaeda's goal from the very beginning since its 
inception in the late 1980's was to create a caliphate. Osama 
bin Laden was on the record saying this over and over and over 
again. So was Ayman Al-Zawahiri. It is in their literature. It 
is in their publicly-facing media, their propaganda. They say 
it all the time. I think we have to take that seriously that 
that is their overarching goal, even though they are very far 
away from that today.
    In some ways what ISIS did was they capitalized on al-
Qaeda's drive request to build a caliphate. They basically 
claimed that they were able to bridge fruition or fulfill Osama 
bin Laden's original mission.
    Today, al-Qaeda and ISIS remain looked in a competition 
across many different battlefields in many different areas 
where they are waging insurgencies. The purpose of those 
insurgencies is to clear out the existing political order or to 
fill political vacuums with new Islamic emirates based on 
Sharia law. The idea of that is to then use these Islamic 
emirates as the basis for a new caliphate.
    When you understand that, that explains why I think there 
is an overarching idea. There many causes of radicalization, 
many causes of terrorism, of course. This isn't the only one. 
But as the glue that binds together their project, that 
explains why we see threats everywhere from West Africa to 
Afghanistan to this day. You can identify the groups that are 
parts of ISIS or al-Qaeda in each one of those areas, and you 
can show that their main goal is to establish a new Islamic 
emirate in those areas.
    Just to flash forward a little bit here and talk about how, 
you know, the al-Qaeda threat and how it has persisted after 
all these years. I wanted to give a sort-of a quick rundown on 
recent activity, which I think a lot of Americans probably 
don't even know has occurred since September 2019. Just to give 
you an idea of what the threat sort-of perception that the 
counterterrorism community, the CIA, the NSA, and others are 
dealing with, the FBI here at home--obviously, I'm an 
independent observer, but I watch what they are doing and what 
they are dealing with. They are still dealing with an enormous 
number of threats around the globe.
    So in September 2019, the U.S. and Afghan forces hunted 
down a guy named Asim Umar in Musa Qala of Helmand. Why is that 
important? Well, Asim Umar was the first emir of al-Qaeda in 
the Indian Subcontinent. He is a guy who repeatedly threatened 
Americans. He was a guy who was involved in a very audacious 
plot against U.S. warships in 2014. He is someone who oversaw 
al-Qaeda's operations not only in Afghanistan on behalf of 
where they were fighting on behalf of the Taliban, but also 
throughout the region as al-Qaeda has tried to expand, indeed 
as the name implies, throughout the Indian Subcontinent.
    Now, what is interesting is another guy who was killed 
during that operation was the courier of Umar, who was running 
back and forth to Ayman al-Zawahiri, the head of al-Qaeda. Now, 
Ayman al-Zawahiri still has, by a conservative estimate, 
thousands of followers around the globe, perhaps tens of 
thousands of people who are loyal to him up through the chain 
of the command. I can map that out for you later, if you would 
like.
    But what is interesting too is that not only was this 
courier running messages back and forth between Asim Umar and 
Ayman al-Zawahiri, but just recently, General McKenzie, the 
head of CENTCOM, says Ayman al-Zawahiri himself is in eastern 
Afghanistan. A very curious and important remark. Because, 
again, this is a guy who sits at the top of the chain of 
command of a global organization.
    Now, you flash forward from there, from September 2019 to 
December 2019, December 6 to be precise, and that is when 
Mohammed Alshamrani, the second lieutenant in the Royal Saudi 
Air Force, perpetrated this shooting at Naval Air Station 
Pensacola. As Mike Morell noted, this is a very significant 
attack. It is the first one that received some level of 
explicit direction and was successful since 9/11 by al-Qaeda. 
There are lots of security challenges involved there. We can 
talk about it.
    The main thing, the main innovation that Alshamrani was 
able to rely upon was basically easy-to-use encryption 
technology on his two iPhones. You know, there has been some 
discussion about trying to install backdoors on iPhones or 
other personal devices to give our security and 
counterterrorism officials a window and to try and monitor 
these type of things. I am very wary of that. I think that 
raises real civil liberty concerns and other issues for 
tyrannies around the world where dictators can take advantage 
of that back door. I hope we can talk about that a little bit 
more as well.
    But after Alshamrani executed this attack, the FBI 
realized, after they cracked the security on his iPhone, that 
he was communicating with AQAP operatives over the course of 4 
years. So going from 2015 all the way up to December 5, the 
night before his attack, in Pensacola via these 2 iPhones, 
which he tried to destroy afterwards.
    Then afterwards, after they got this intelligence, they 
killed--the United States was able to hunt down and kill one of 
his main handlers in Yemen. The United States also 
reconstituted efforts to go after Qasim al-Raymi, the head of 
AQAP.
    Well, why is that important? Well, Qasim al-Raymi is a guy 
whose biography, his dossier goes all the way back to 1990's in 
Afghanistan when he was identified as a potential new leader 
for al-Qaeda in al-Qaeda's camps in Afghanistan.
    When he was killed, he was replaced by another al-Qaeda 
veteran that goes back to 1990's. He is a guy named Khalid 
Batarfi, another guy who is trained in al-Qaeda's camps and is 
deeply anti-American and deeply beholden to the mission that 
Osama bin Laden set forth so many decades ago now.
    So that brings an issue that we talked about in FDD's Long 
War Journal quite often, which is that some of these guys that 
we are hunting and dealing with, they have careers that started 
in the 1990's. If you go through our general, our military 
chain of command, or our civilian leadership, just think about 
the turnover we have had during that time. Yet al-Qaeda has 
guys that have been groomed for literally a generation to lead 
these roles, and that speaks again to Mike Morell's point about 
this being a generational conflict. Some of these guys have 
literally been in the game for a generation, in some cases, 
even longer than that.
    So going from there, from AQAP in Yemen, in March, New York 
Times reported that 2 Shabaab operatives were arrested after 
they were found to be engaged in flight training. So Shabaab is 
al-Qaeda's so-called affiliate. It is really its regional 
branch in East Africa where they are trying to build and 
Islamic emirate. No. 2, Shabaab operatives were hunted down and 
arrested, one in the Philippines, one in Africa, because they 
were basically involved in some sort of flight training, 
setting off concerns that they may be participating or planning 
some kind of hijacking operation or some other sort of aerial 
assault.
    A lot of the details are murky, but I can tell you for a 
fact that Shabaab has been experimenting as part of a cross-
regional team of al-Qaeda experts, Shabaab has been 
experimenting with high-end explosives that they can get on an 
airplane. In fact, I have got the photos from 2016 when they 
actually blew a hole in the side of a Turkish airliner.
    Our perception is that al-Qaeda hasn't given the go-ahead 
to try that on other planes yet, but they are experimenting 
with it. They are trying to get suitcase bombs through X-rays 
and other technology in order to go after aviation. All these 
years after 9/11, after all the plots that have been stopped, 
they are still trying to do that.
    Then if you go flash forward from there, on June 3 of this 
year, just earlier this month, the French killed Abdulmalek 
Droukdel, a long-time emir of al-Qaeda in the Islamic Maghreb. 
One of the arguments that we have combatted through the years 
is al-Qaeda in the Islamic Maghreb--now I will let you focus on 
that for a second--al-Qaeda in the Islamic Maghreb isn't really 
al-Qaeda. We have heard this a long time.
    Well, in fact, Droukdel was communicating regularly with 
al-Qaeda team leadership. This was evidenced in Osama bin 
Laden's files, which we have processed quite a few now of. The 
French, after they killed him, they said that not only was 
Droukdel who was killed in northern Mali, the emir of AQIM, but 
he was also sitting on al-Qaeda's international or global 
management committee. In other words, this is a guy who had a 
say on al-Qaeda's global affairs far outside of his home base 
in North and West Africa. It is that sort-of important, sort-of 
connectivity or connective issue which we try and harp on 
because I think it tells you a lot about al-Qaeda in 2020.
    Finally, I think that earlier this month, mid-June now, the 
United States launched a drone strike, a very targeted drone 
strike against 2 al-Qaeda operatives in Idlib, Syria. This is 
the latest in a series of drone strikes targeting al-Qaeda 
operatives in Syria that are thought to pose a threat to the 
West. One of them was a long-time companion of Abu Musab al-
Zarqawi, the founder of al-Qaeda in Iraq. He was the guy who--
this guy, Khalid al-Aruri his name is. He was implicated all 
the way back to 2003 in the suicide bombings in Casablanca. So 
this is a guy who has again another lengthy dossier who has 
been in the game for a long time. He finally--I presume it was 
the CIA, got him with a very special design drone missile known 
as an R9X, which is very interesting, and we can talk about 
that. But this gives you the perception that the CIA is still 
hunting these guys around the globe.
    I don't know how much--I think I am out of time. But I will 
just wrap up by saying this: This is supposed to be a very 
brief presentation, but think about the guys that I just 
surveilled there in my oral testimony. You have threats from 
Afghanistan, you have in Yemen, you have in Somalia, you have 
in Mali, and you have in Syria. That is al-Qaeda 2020. Al-Qaeda 
has a distributed leadership across those countries. It has a 
distributed external operations capacity across those 
countries. The United States is still hunting those guys on a 
regular basis. I think that is often lost in sort-of our 
discourse today about what is actually going, but it speaks to 
the idea that this is, in fact, a long-term threat and a long-
term problem set that we are going to keep dealing with.
    I thank you for giving me the chance to testify today, and 
I welcome any questions you guys have.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
    Chairman Rose, Ranking Member Walker, and other Members of the 
committee, thank you for inviting me to testify today. We are living in 
difficult times. Americans have many threats to worry about. The 
challenges we face are daunting--from the coronavirus pandemic to 
domestic terrorists to foreign actors seeking to exploit our divisions 
to various cyber threats. This committee has to monitor many different 
types of issues, so I appreciate that you have not lost sight of the 
fact that al-Qaeda and the Islamic State (ISIS) are still active. Even 
though most of their violence is carried out overseas, both groups are 
deeply anti-American and would like to exploit any holes in our 
defenses that they can find.
    First, I would like to make several general observations. I will 
then turn to a brief analysis of recent events. My general points are 
as follows:
  <bullet> The U.S. military started pivoting away from the wars 
        against the jihadists in 2011 and 2012. Much of this pivot was 
        already completed by 2016. By the beginning of 2017, the United 
        States retained a small footprint in Afghanistan, Iraq, and 
        Syria, as well as forces in Africa. Since 2012, the United 
        States has attempted to buttress local partners, as they have 
        been responsible for the bulk of the fighting on the ground in 
        these areas. This has worked better in some countries than 
        others. But the point is that America has not been invested in 
        large-scale counterinsurgencies for the better part of a 
        decade. Instead, the United States has complemented partner 
        forces with air strikes, special operations raids, and other 
        focused counterterrorism efforts. It appears that this ad hoc 
        strategy may be coming to an end, as America's greatly reduced 
        footprint could be withdrawn from several countries by next 
        year. In that event, the challenges for homeland security will 
        not go away. In some ways, the threats may become even more 
        difficult to detect and thwart.
  <bullet> Even if the United States stops fighting, the jihadists will 
        not. Al-Qaeda's leaders sought to spark a jihadist revolution 
        and, despite suffering many setbacks, they succeeded. The 
        jihadists today are waging insurgencies across Africa, hotspots 
        in the Middle East, and into South Asia. Their stated goal is 
        to build Islamic emirates, which could eventually join together 
        to form a new caliphate. Although some U.S. policy makers 
        dismissed this goal in the past, ISIS proved that this 
        motivation is very real.\1\ But it is also al-Qaeda's chief 
        goal and has been since the beginning. A new caliphate is not 
        close at hand, and many obstacles stand in the jihadists' way. 
        Yet an awful amount of violence has resulted from the 
        jihadists' caliphate quest, and they already have nascent 
        emirates in some regions.
---------------------------------------------------------------------------
    \1\ This is not intended to suggest that the jihadists' behavior is 
monocausal. They can have multiple motivations. But from my 
perspective, the jihadist ideology, including its caliphate quest, is 
the glue that binds.
---------------------------------------------------------------------------
  <bullet> ISIS is not at the zenith of its power. But as many analysts 
        predicted, the end of its territorial caliphate did not lead to 
        the end of the group. ISIS is waging an insurgency across parts 
        of Iraq and Syria. It also has noteworthy ``provinces'' in 
        Khorasan (Afghanistan, Pakistan, and parts of the surrounding 
        countries), the Sinai, Southeast Asia, Somalia, West Africa, 
        and Yemen. ISIS has terrorist networks in other areas. Many 
        across this network are openly loyal to Abu Ibrahim al-Hashimi 
        al-Qurayshi, the successor to Abu Bakr al-Baghdadi. After 
        Baghdadi was killed last year, ISIS orchestrated a media 
        campaign to emphasize the fealty of its ``provinces.''
  <bullet> Al-Qaeda has survived the post-9/11 wars and America's 
        counterterrorism campaign. The group's base has spread from 
        South Asia into multiple other countries. Several 
        organizations, often described as al-Qaeda ``affiliates,'' 
        serve as regional branches. These branches are each led by an 
        emir who swears his allegiance to the head of al-Qaeda. Since 
        Osama bin Laden's death in May 2011, that leader has been Ayman 
        al-Zawahiri. The official al-Qaeda branches are: Al-Qaeda in 
        the Arabian Peninsula (AQAP), al-Qaeda in the Islamic Maghreb 
        (AQIM), al-Qaeda in the Indian Subcontinent, and al-Shabaab in 
        Somalia. To this list we can add the ``Group for the Support of 
        Islam and Muslims'' (Jama'at Nusrat al-Islam wal-Muslimin, or 
        JNIM), a wing of AQIM. Hurras al-Din in Syria is also part of 
        al-Qaeda's network, as are other groups based in Idlib. But al-
        Qaeda's chain-of-command in Syria has been upset by a number of 
        internal rivalries, power struggles, and arguments over 
        jihadist strategy.\2\ In addition, al-Qaeda works through other 
        groups that are not official al-Qaeda branches but are 
        nonetheless part of its web. Such groups include the Pakistani 
        Taliban. Still other jihadist organizations are closely allied 
        with al-Qaeda.
---------------------------------------------------------------------------
    \2\ Those disagreements have centered on Hay'at Tahrir al Sham 
(HTS), which both the United States and the United Nations continue to 
consider an al-Qaeda ``affiliate.''
---------------------------------------------------------------------------
  <bullet> ISIS and al-Qaeda remain locked in a competition for the 
        fealty of jihadists around the globe. Much of this competition 
        will take place at the local level, but international terrorism 
        could play a role in the rivalry, as these groups look to 
        outbid one another for the affection of would-be jihadists. 
        While there may be some cooperation between individual 
        commanders, the two mother organizations are at odds. ISIS has 
        developed an institutional hatred for al-Qaeda. In some areas, 
        such as Iraq, ISIS is definitively stronger. In other areas, 
        such as Somalia and Yemen, al-Qaeda has the upper hand. In West 
        Africa, the two are currently close in strength, though that 
        can change. Any assessment of relative strength in Syria is 
        difficult due to al-Qaeda's management problems and other 
        factors. And an assessment of their relative positions in 
        Afghanistan is complicated by the fact that al-Qaeda and 
        affiliated groups are embedded within the Taliban-led 
        insurgency. Al-Qaeda has deliberately sought to mask the extent 
        of its operations in Afghanistan.
  <bullet> The Trump administration's withdrawal deal with the Taliban, 
        signed on February 29 in Doha, has not put an end to the 
        terrorist threats emanating from either Afghanistan or 
        Pakistan. I have critiqued various aspects of the deal at 
        length elsewhere, including during previous Congressional 
        testimony, so I will not repeat all of those criticisms in 
        writing here.\3\ But some basic observations are in order. 
        Nearly 4 months have passed since that agreement was signed. 
        During that time, the United States has drawn down to 8,600 or 
        fewer troops. It is not clear what, if anything, the United 
        States has received in return. The Taliban went on the 
        offensive against the Afghan government immediately after the 
        accord was finalized. The Taliban has not renounced al-Qaeda. 
        In fact, the Taliban continues to lie about al-Qaeda's presence 
        in Afghanistan, claiming the group has not been located in the 
        country since the days of its Islamic Emirate in 2001.\4\ As 
        far as I am aware, the Taliban has not taken a single action 
        against al-Qaeda or any of the al-Qaeda-affiliated groups known 
        to be fighting inside Afghanistan. Only 2 passages of the 
        February 29 accord specifically mention al-Qaeda, and both of 
        those repeat the same language. The Taliban has supposedly 
        agreed to prevent al-Qaeda from using Afghan soil to threaten 
        the United States or its allies. But the Taliban has made that 
        same claim repeatedly since the 1990's. It was clearly a lie 
        then. Without any verification or enforcement mechanisms--and 
        there are no such provisions specified in the text of the deal 
        released to the public--there is no reason to think the Taliban 
        is telling the truth now. As long as al-Qaeda's decades-long 
        relationship with the Taliban remains unbroken, it will be a 
        source of strength for al-Qaeda's global network, including in 
        its rivalry with ISIS.
---------------------------------------------------------------------------
    \3\ See: ``No Deal Is Better Than a Bad Deal,'' The Dispatch, March 
4, 2020. (https://thedispatch.com/p/no-deal-is-better-than-a-bad-deal). 
See also: Thomas Joscelyn, ``The Trump Administration's Afghanistan 
Policy, Testimony before the House Committee on Foreign Affairs, 
September 2019. (https://docs.house.gov/meetings/FA/FA00/20190919/
109992/HHRG-116-FA00-WState-JoscelynT-20190919.pdf)
    \4\ Thomas Joscelyn, ``Taliban falsely claims al-Qaeda doesn't 
exist in Afghanistan,'' FDD's Long War Journal, June 15, 2020. (https:/
/www.longwarjournal.org/archives/2020/06/taliban-falsely-claims-al-
qaeda-doesnt-exist-in-afghanistan.php)
---------------------------------------------------------------------------
  <bullet> Both al-Qaeda and ISIS spend most of their resources waging 
        insurgencies. But a part of each organization is focused on 
        attacking the West. With that in mind, I turn now to a summary 
        of recent events, focusing on the al-Qaeda threat and how it 
        ties back to terrorism in the United States and Europe.
A brief summary of recent al-Qaeda activity and counterterrorism 
        operations.
    The most recent al-Qaeda attack in the United States came on 
December 6, 2019, when Second Lieutenant Mohammed Alshamrani (Al-
Shamrani) opened fire at Naval Air Station Pensacola in Florida, 
killing 3 U.S. service members and wounding 8 other Americans. AQAP 
claimed ``full responsibility'' for the Saudi's attack in a video 
released on February 2. AQAP's claim was not empty bluster. After 
cracking the security on Alshamrani's 2 iPhones, both of which he tried 
to destroy, the FBI discovered he had ``significant ties'' to AQAP.\5\
---------------------------------------------------------------------------
    \5\ Department of Justice, Press Release, ``Attorney General 
William P. Barr and FBI Director Christopher Wray Announce Significant 
Developments in the Investigation of the Naval Air Station Pensacola 
Shooting,'' May 18, 2020. (https://www.justice.gov/opa/pr/attorney-
general-william-p-barr-and-fbi-director-christopher-wray-announce-
significant)
---------------------------------------------------------------------------
    Alshamrani was a committed jihadist before he entered the United 
States. According to the Department of Justice (DOJ), Alshamrani was 
``radicalized'' by 2015, ``connected and associated with AQAP 
operatives,'' and then joined the Royal Saudi Air Force with the intent 
of conducting a ``special operation.''\6\ As a member of the Royal 
Saudi Air Force, he entered a prestigious training program that gave 
him access to U.S. military bases. Throughout his time in the United 
States, Alshamrani regularly communicated with AQAP members. While in 
the United States, Alshamrani ``had specific conversations with 
overseas AQAP associates about plans and tactics,'' was ``communicating 
with AQAP right up until the attack,'' and ``conferred with his 
associates until the night before he undertook the murders.''\7\ 
Alshamrani also made sure that AQAP could exploit his attack for 
propaganda purposes. He saved his final will to one of his iPhones and 
obviously sent a copy to AQAP. AQAP's media operatives displayed it on-
screen during its February video claiming ``full responsibility'' for 
the shooting.\8\ The United States also used intelligence recovered 
from Alshamrani's phones to identify his associates, including an AQAP 
operative known as Abdullah al-Maliki, who was subsequently targeted in 
an air strike.\9\ It is possible that the United States stepped up its 
efforts to kill AQAP's emir, Qasim al-Raymi, as a result of the 
Pensacola shootings. While the United States and its allies have hunted 
Raymi for years, he was finally killed in a drone strike in Yemen in 
January.
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ Ibid.
    \8\ Federal Bureau of Investigation, Press Release, ``FBI Director 
Christopher Wray's Remarks at Press Conference Regarding Naval Air 
Station Pensacola Shooting Investigation,'' May 18. 2020. (https://
www.fbi.gov/news/pressrel/press-releases/fbi-director-christopher-
wrays-remarks-at-press-conference-regarding-naval-air-station-
pensacola-shooting-investigation).
    \9\ Ibid.
---------------------------------------------------------------------------
    Khalid Batarfi succeeded Raymi as AQAP's emir. Like Raymi, Batarfi 
is an al-Qaeda veteran whose career traces to the 1990's in 
Afghanistan, where he was trained and indoctrinated. Batarfi is more of 
an ideologue and thinker than Raymi. Immediately upon assuming AQAP's 
top post, Batarfi continued to release a religious lecture series that 
is intended to purify the jihadists' ranks and counter the Islamic 
State. In addition to his religious work, Batarfi has long managed an 
operational portfolio that extends far outside of Yemen. According to a 
panel of experts that reports to the United Nations Security Council, 
Batarfi was responsible for a terrorist plot that was foiled in Jordan 
in July 2017.\10\ AQAP attacks, such as the one in Pensacola and the 
2015 massacre at Charlie Hebdo's offices in Paris, are smaller in scale 
and focused on specific targets. Though the group is mired in a 
complex, multi-sided war in Yemen, it is always possible that AQAP will 
try to execute more deadly attacks abroad. Batarfi is openly anti-
American. In a message released in 2018, Batarfi called on al-Qaeda's 
followers to ``rise and attack'' Americans ``everywhere.''\11\ Batarfi 
is likely a member of al-Qaeda's senior management, as his predecessors 
in AQAP's hierarchy have served similar dual roles as both AQAP's 
leaders and top figures in al-Qaeda's global network.
---------------------------------------------------------------------------
    \10\ Thomas Joscelyn, ``Analysis: AQAP remains under pressure,'' 
FDD's Long War Journal, May 26, 2018. (https://www.longwarjournal.org/
archives/2018/05/analysis-aqap-remains-under-pressure.php).
    \11\ U.S. Department of State, Bureau of Counterterrorism, 
``Country Reports on Terrorism 2018,'' 2019, page 319. (https://
www.state.gov/reports/country-reports-on-terrorism-2018/).
---------------------------------------------------------------------------
    On June 3, Abdulmalek Droukdel, the long-time emir of AQIM, was 
killed in a counterterrorism raid in Mali. Florence Parly, France's 
minister for the armed forces, announced that her country carried out 
the operation. U.S. Africa Command subsequently confirmed that it 
played a supporting role, providing intelligence, surveillance, and 
reconnaissance to the French. Droukdel was a major figure in al-Qaeda's 
global network. For instance, files recovered in Osama bin Laden's 
Abbottabad compound show that he reported directly to al-Qaeda's senior 
leadership, requesting guidance on personnel, hostage-taking 
operations, negotiations with the government of Mauritania, and other 
matters.
    France's Parly identified Droukdel as a member of al-Qaeda's 
``management committee.''\12\ And the French government described him 
as Zawahiri's ``third deputy.''\13\ Therefore, from France's 
perspective, Droukdel was not only the emir of AQIM, but was also a 
senior figure in al-Qaeda's global hierarchy. This is consistent with 
our understanding of al-Qaeda's current organizational structure, as 
the group's senior managers and decision makers are found in multiple 
geographic locales.
---------------------------------------------------------------------------
    \12\ ``French forces kill al-Qaeda's North African commander,'' 
Associated Press, June 5, 2020. (https://www.cbc.ca/news/world/french-
forces-kill-al-qaeda-north-africa-commander-1.5601037).
    \13\ The French military's statement, claiming Droukdel was 
Zawahiri's ``third deputy,'' can be found here: French Ministry of the 
Armed Forces, ``Point de situation des operations du 05 au 11 juin 
[Update on operations from 05 to 11 June],'' June 11, 2020. (https://
www.defense.gouv.fr/operations/points-de-situation/point-de-situation-
des-operations-du-05-au-11-juin).
---------------------------------------------------------------------------
    While most of AQIM's efforts are focused in North and West Africa, 
there is some connective tissue between the al-Qaeda arm and the 
group's global terrorist ambitions. An operative known as Younis al 
Mauritani helped broker the merger of AQIM's predecessor organization, 
the Salafist Group for Call and Combat, with al-Qaeda in 2006. 
Mauritani went on to play a senior role in al-Qaeda's external 
operations arm, planning attacks against American and European targets. 
Mauritani was captured in Pakistan in 2011 and repatriated to his home 
country. But I always point to his biography as an example of how 
AQIM's men are not entirely focused on Africa. It is possible that some 
other AQIM figures will follow a similar career trajectory. As of this 
testimony, AQIM has yet to announce a successor to Droukdel. But there 
are multiple capable replacements. And his demise is not the end of al-
Qaeda's war-fighting capacity in North and West Africa. Both AQIM and 
its spawn, the ``Group for the Support of Islam and Muslims'' (Jama'at 
Nusrat al-Islam wal-Muslimin, or JNIM), will continue to fight on. So 
will their rivals in the Islamic State's local ``province.''
    In mid-June, 2 senior al-Qaeda operatives were targeted in a drone 
strike in Syria's Idlib province.\14\ One of them, Abu al-Qassam (also 
known as Khaled al-Aruri and Abu Ashraf), was an al-Qaeda veteran whose 
jihadist career dates back to the 1990's. He was one of Abu Musab al-
Zarqawi's closest companions, as the two grew up together in Jordan and 
then worked side-by-side from the early 1990's until Zarqawi's demise 
in 2006. He was also Zarqawi's brother-in-law. The other was a jihadist 
known as Bilal al-Sanaani, a nom de guerre indicating that he was from 
Yemen. Abu al-Qassam was a top figure in Hurras al-Din (HAD), an al-
Qaeda group that was established after months of jihadists infighting 
in Syria. HAD's leadership objected to the moves made by Hay'at Tahrir 
al-Sham (HTS), an organization formerly known as al-Nusrah Front, which 
was an official branch of al-Qaeda until July 2016. As result of 
various intra-jihadist disputes and other setbacks, al-Qaeda's chain of 
command in Syria remains murky. Multiple groups fighting inside Syria 
have ties to al-Qaeda. And as the unclaimed air strike in mid-June 
demonstrates, the United States continues to target those terrorists 
who are thought to be especially worrisome.
---------------------------------------------------------------------------
    \14\ Thomas Joscelyn, ``U.S. reportedly targets 2 senior al Qaeda 
figures in air strike in Syria,'' FDD's Long War Journal, June 14, 
2020. (https://www.longwarjournal.org/archives/2020/06/u-s-reportedly-
targets-2-senior-al-qaeda-figures-in-airstrike-in-syria.php).
---------------------------------------------------------------------------
    It should be noted that Abu al-Qassam was 1 of 5 senior al-Qaeda 
figures set free by Iran in 2015. The 5 were reportedly exchanged for 
an Iranian diplomat who was held hostage by AQAP in Yemen. Abu al-
Qassam and 2 of the others made their way to Syria, where all 3 have 
now perished in the U.S. drone campaign. The other 2, Saif al-Adel and 
Abdullah Abdullah (a.k.a. Abu Muhammad al-Masri), evidently decided to 
stay in Iran, and from there they have weighed in on the jihadist 
controversies inside Syria. During 1 on-line squabble, Abu al-Qassam 
himself wrote that the 2 al-Qaeda veterans ``left prison and they are 
not imprisoned'' inside Iran. Abu al-Qassam claimed that Adel and 
Abdullah ``are forbidden from traveling until Allah makes for them an 
exit,'' but ``they move around and live their natural lives except for 
being allowed to travel.''\15\ Unlike their brethren in Syria, Adel and 
Abdullah are safe from America's drones inside Iran, because the United 
States has never launched air strikes against al-Qaeda there. The 
Iranian regime has a complex relationship with al-Qaeda. Although the 2 
are often at odds, the Iranians have also allowed al-Qaeda to maintain 
a ``core pipeline'' on their soil. This facilitation network allows al-
Qaeda to shuttle operatives and communications across the Middle East 
and South Asia.\16\
---------------------------------------------------------------------------
    \15\ Ibid.
    \16\ Some commentators have claimed that merely pointing to Iran's 
``agreement'' with al-Qaeda is part of some conspiratorial scheme to 
start a war. That claim is nonsense. The formerly ``secret deal'' 
between the Iranian government and al-Qaeda was documented by the Obama 
administration in a series of terrorist designations and other official 
statements by the Treasury and State Departments. See: Thomas Joscelyn, 
``State Department: Iran allows al Qaeda to operate its `core 
facilitation pipeline','' FDD's Long War Journal, September 19, 2018. 
(https://www.longwarjournal.org/archives/2018/09/state-department-iran-
allows-al-qaeda-to-operate-its-core-facilitation-pipeline.php). In 
addition, it should be noted again that Iran and al-Qaeda are often at 
odds, including in Syria and Yemen.
---------------------------------------------------------------------------
    The mid-June air strike in Idlib was the latest in an infrequent 
drone campaign in northern Syria. The targets have been select al-Qaeda 
leaders and operatives thought to pose a threat to the West. In 
February 2017, one of Ayman al-Zawahiri's top deputies, Abu al-Khayr 
al-Masri, was killed in a drone strike. It appears that an R9X missile 
was used in that targeted air strike and then again earlier this month 
in Idlib. In late 2018, Iyad Nazmi Salih Khalil (a.k.a. Abu Julaybib 
al-Urduni), was killed in an air strike in late 2018. Like Abu al-
Qassam, Abu Julaybib was close to Zarqawi. The United States then 
conducted air strikes against al-Qaeda targets in June and August 2019. 
And in December 2019, another senior HAD official, Bilal Khuraysat, was 
killed. Khuraysat was a significant ideological figure, as he penned 
tracts defending al-Qaeda and criticizing the Islamic State, among 
other topics.
    Al-Qaeda's senior leadership retains a presence in Afghanistan and 
Pakistan. In September 2019 American and Afghan forces killed Asim 
Umar, the first emir of AQIS, during a raid in the Musa Qala district 
of Helmand.\17\ Umar and his comrades were embedded within a Taliban 
stronghold and they were protected by one of the Taliban's ``shadow 
Governors.'' Umar's courier was also killed during the raid. According 
to the Afghan government, that same courier ran messages back and forth 
to Ayman al-Zawahiri.
---------------------------------------------------------------------------
    \17\ Bill Roggio, ``Afghan intelligence confirms death of AQIS 
emir,'' FDD's Long War Journal, October 8, 2019. (https://
www.longwarjournal.org/archives/2019/10/afghan-intelligence-confirms-
death-of-aqis-emir.php).
---------------------------------------------------------------------------
    That same month, the White House confirmed that Hamza bin Laden, 
Osama's biological and ideological heir, had been killed in a 
``counterterrorism operation.''\18\ The White House did not explain 
when or where, only saying that Hamza had met his demise somewhere ``in 
the Afghanistan/Pakistan region.'' The Trump administration added that 
Hamza ``was responsible for planning and dealing with various terrorist 
groups,'' but did not name those organizations. In my view, it is 
likely that Hamza was working with the Afghan Taliban, among other 
groups. Like his father and Ayman al-Zawahiri, Hamza swore his own oath 
of fealty to the Taliban's emir. A monitoring team that works for the 
U.N. Security Council recently reported that a Taliban delegation met 
with Hamza in the spring of 2019 to ``to reassure him personally that 
the Islamic Emirate would not break its historical ties with Al-Qaeda 
for any price.''\19\ The Islamic Emirate of Afghanistan is what the 
Taliban calls its totalitarian regime. Similarly, the U.N. team 
reported that Ayman al-Zawahiri met with a Haqqani Network delegation 
in February 2020 to discuss the agreement struck between the United 
States and the Taliban.\20\ The Haqqani Network is an integral part of 
the Taliban.
---------------------------------------------------------------------------
    \18\ White House, ``Statement from the President,'' September 14, 
2019. (https://www.whitehouse.gov/briefings-statements/statement-from-
the-president-10/).
    \19\ United Nations Security Council, ``Eleventh report of the 
Analytical Support and Sanctions Monitoring Team submitted pursuant to 
resolution 2501 (2019) concerning the Taliban and other associated 
individuals and entities constituting a threat to the peace, stability, 
and security of Afghanistan,'' April 30, 2020, page 12. (https://
www.undocs.org/S/2020/415).
    \20\ Ibid.
---------------------------------------------------------------------------
    The U.N. monitoring team cited intelligence and reporting from 
member states. It is not possible for me, as an outsider, to inspect 
these sources. But it is likely within the purview of this committee to 
ask the Department of Homeland Security and other agencies about these 
reports and the current status of Taliban-al-Qaeda relations. Such 
questions are especially important given that the head of U.S. Central 
Command, General Kenneth McKenzie, recently claimed that Zawahiri is 
based in eastern Afghanistan.\21\
---------------------------------------------------------------------------
    \21\ U.S. Central Command News Transcript, ``MEI engagement with 
General Kenneth F. McKenzie Jr.,'' June 11, 2020. (https://
www.centcom.mil/MEDIA/Transcripts/Article/2216473/mei-engagement-with-
general-kenneth-f-mckenzie-jr/).
---------------------------------------------------------------------------
    This brief synopsis of al-Qaeda shows that the organization 
maintains a cohesive international network nearly 19 years after the 9/
11 hijackings. Its leadership is distributed across several countries. 
And while much of al-Qaeda is focused on wars ``over there,'' some part 
of the organization remains focused on carrying out attacks over here.

    Mr. Rose. Absolutely.
    I thank you all so much for your extraordinary testimony. I 
will remind the subcommittee that we will each have 5 minutes 
to question the panel.
    Before I recognize myself, one last thing, without 
objection, the gentlewoman from New Mexico, Ms. Torres Small, 
will also be permitted to sit and question the witnesses.
    With that, I will now recognize myself for questions.
    I want to--it seems that what the 3 of you are saying is 
the threat is still here, but we also have to skate to where 
the puck is going. Let's think about how this threat is 
evolving.
    So I want to introduce 4 points, 4 ideas. Then, 
particularly, Mr. Morell and Ambassador Kaidanow, I would like 
to hear your thoughts on this.
    The first is, is H.R. McMasters said, I think very 
pressingly, that you either fight America asymmetrically or 
stupidly. So with that being said, how--are we seeing the 
emergence of any State-level support for ISIS, al-Qaeda, or for 
other non-state actors, not with the explicit intent of 
regional power, as what I think we see more so with Iran, but 
with the intent of attacking the United States of America, 
attacking our homeland?
    Second, one of the threats that I am most concerned with in 
2020 and beyond is the notion of a multi-layered attack by a 
ISIS, al-Qaeda-like actor using cyber tools and let's say a 
small arms attack of sorts. What are we seeing from ISIS and 
al-Qaeda with their capacity to utilize cyber tools to inflict 
harm?
    Second is the Southern Border. Can you please speak to what 
is the potential for a threat from ISIS or al-Qaeda at the 
Southern Border? This is something that the President speaks 
about very frequently, has used it as a justification for the 
border wall. I am going to ask you if you could speak to that, 
the nature of that threat.
    Then last, if what you are saying is true in that this is 
now here to stay for generations to come, should we be 
considering building multilateral institutions as we have for 
peacekeeping, finance, health, and so on and so forth, to more 
permanently, as we have with NATO, address the issue of cyber--
excuse me, of terrorism?
    Mr. Morell, we will start with you.
    Mr. Morell. OK. So let me start at the bottom. Let me talk 
about multilateral institutions. I think the point I would make 
is that, you know, a huge part of counterterrorism operations 
are intelligence. A huge part of counterterrorism operations 
are intelligence, right. You can't do them without first-rate 
intelligence. Intelligence services outside of the Five Eyes, 
and even within the Five Eyes, it is quite compartmented.
    Intelligence services don't like multilateral exchanges, 
multilateral sharing, multilateral cooperation. They like 
bilateral. The reason is pretty simple, because what you are 
willing to do and what you are willing to share is based on 
trust. So as you expand the number, you make it much more 
difficult for people to be willing to share.
    So I don't think multilateral institutions are going to be 
particularly helpful, because I don't think intelligence 
services are going to be willing to share within those 
multilateral institutions.
    On the question of any states supporting ISIS and al-Qaeda 
from the perspective of, you know, supporting a task, I don't 
see any. You know, I would love to hear what Tom has to say 
about that.
    In terms of cyber tools, I left Government in 2013, so I 
don't know what the intelligence says now, but, you know, up to 
that point and what I see in the open media and in experts--in 
the work of experts like Tom is I don't see a lot of terrorist 
interests in cyber. It just doesn't have the same kind of 
effect that they are looking for.
    I think another really important point with regard to cyber 
is the kind of effects that you might--that a terrorist group 
might see as catastrophic would be attacks on our critical 
infrastructure, right? So if a terrorist group is going to 
focus on a cyber attack, that is where they would focus, 
because that can create a catastrophe.
    Those kind of cyber tools that can do that are the most 
sophisticated in the world, and that is where our defenses are 
the best. So it is only a handful of nation-states that have 
those kind of sophisticated tools. In fact, only 2 that I know, 
outside of--2 in terms of our adversaries have those kind of 
tools. So even if the terrorists wanted to get there, it would 
be extremely difficult for them to get there in terms of 
bringing about a catastrophic attack as opposed to just kind-of 
a nuisance attack on cyber.
    The Southern Border, I am not an expert on, so I will leave 
that to somebody else.
    Mr. Rose. Ambassador, is there anything you would like to 
add to that? Feel free to pick any of the 4. You don't have to 
go through all.
    Ms. Kaidanow. Sure, and I appreciate that. I would 
associate, again, myself with everything Mike said. I would 
just add maybe a couple of thoughts.
    It is not just that intelligence is the key to divining, 
you know, what the intent of some of these groups are and the 
level of trust, and the trust is bilateral, as he said, more 
than it is multilateral. That is absolutely correct. But it is 
also the case, I think, at least it was in my experience, you 
know, part of what we did at the State Department, the biggest 
part of what we did at the State Department was try and marry 
our homeland security needs on the one hand and the ability, 
again, to rope in, if you will, our European and other allies 
to do--not just European, all over the world, to do the kinds 
of things that would, in theory, extend our border out.
    So in other words, our border is no longer, you know, on 
the East and the West Coast. Our border becomes Indonesia. Our 
border becomes Saudi Arabia. Our border becomes those places 
where otherwise we might find that people are coming we don't 
want.
    The way you do that is, theoretically, is you engage, you 
know, the relevant institutions in those countries, whether it 
is their internal affairs ministry, which is usually where you 
want to be, you know--and that is not necessarily the same 
people who are doing their visa work. That is not necessarily 
the same people who are, you know, deciding who comes in and 
who goes out of those countries. It is not--and so there is a 
lot of--what you find was however disassociated we were before 
9/11, in other words, FBI didn't talk to CIA and so on and so 
forth, that same disassociation, that same lack of 
communication exists almost everywhere in the world. Not only 
does it exist, but you can be shocked--even in places like 
France where, you know, they have, again, several various 
institutions that are dealing with these issues, homeland 
security-ish, you know, they have, again, you know, an intel 
agency, they have other agencies that are doing law enforcement 
and so forth.
    The only way sometimes they talk to each other is through 
us. They don't like giving out their secrets. They don't like 
talking about, you know, what it is that they do for a living. 
They think that is their bread and butter.
    So we find that it is a challenge for us almost anywhere we 
go, on a bilateral basis, to get what we need from the 
countries. I think that is a worthwhile effort, personally. I 
think it is really important, because again, we are not going 
to be able to do these things by ourselves. I think we have 
made some strides, actually.
    The CIA, I can't talk about it in this particular, you 
know, venue, but the CIA has some programs that we utilize to 
try and, you know, get at these problems. You know, border 
issues are sort-of very, very--when you can't be always on the 
offensive, and you need to try, but when you can't be, you need 
to have a strong defense. That defense needs to be, you know, 
not just, again, us but us and our allies.
    So I think that is an important point to think about when 
we think about, you know, multilateral versus bilateral. We are 
not even at the stage yet where we can get all of our bilateral 
friends together in a way that we can keep trying.
    Just one other small thing, and that is, I agree with the 
cyber. I haven't seen any evidence necessarily that, you know, 
these groups necessarily--and Tom may have more on this--are, 
you know, there yet. But I would say, if they end up having 
even just a few people who are pretty good at the hacking 
thing, you can find that there is--you know, it is not 
resource-heavy. It is not resource-intensive.
    So I think that you need to keep an eyeball on it. I don't 
think necessarily they are there yet; they are certainly not in 
the capability mode of like Iran or China. No, of course not. 
But I do think that they are in a place where, you know, if 
they decided, or if there was someone who was particularly 
interested in those issues. As you said, I think, Mike, they 
were extremely innovative at the outset of, you know, the 
caliphate push and so forth. They still remain innovative. They 
haven't shown us necessarily that they are doing these things 
on the cyber side, but I wouldn't exclude it.
    Then, finally, just the last thing is the emergence of, you 
know, state support. I don't see that, but I will say, and I 
totally believe this, having served in Afghanistan, if that--if 
we give that up, if we are now in a position--I know you 
haven't talked about how much money we have wasted and so on, 
and I am not here to dispute a lot of that; you know, I get it, 
but ``wasted'' is a big word. I still find that we have created 
a system in Afghanistan that at least can sustain itself for 
the time being. If we give the Taliban, you know, complete 
political ability to kind-of come in there and now take over, I 
think we are taking an enormous risk. That is my particular 
feeling on the subject. But, again, I served there, so maybe I 
am biased. But that is my very strong feeling.
    I know, Chairman, you have also been there and in--down in 
Kandahar, and I think, you know, you may feel differently, but 
we need to think about our investment. We need think about the 
dangers that are still associated with Afghanistan. I will stop 
there.
    Mr. Rose. Sure. No, no. I was just agreeing. You were 
thinking about the high-level stuff, so we really value your 
opinion.
    Mr. Walker, you have 5 minutes, my friend.
    Mr. Walker. Thank you, Chairman.
    I want to start with Mr. Joscelyn. Your testimony 
highlights the long history and interconnectedness of the 
Taliban and al-Qaeda and that despite having signed an 
agreement with the United States, the Taliban will never 
disavow the terror organization, it seems. What are your 
recommendations for pressuring the Taliban into creating an 
international coalition to pressure the Taliban and strengthen 
the Afghan government? Can you address that?
    Mr. Joscelyn. Well, thank you, Congressman, for the 
question. As I am sure several of you are aware, I have been 
highly critical of the deal of February 29, the deal in Doha, 
that was signed between the State Department and the Taliban. I 
am a nerd who tracks the Taliban every day of my life and have 
for about 20 years, you know, so I know how they think. I think 
Mike Morell is exactly right when he says he doesn't trust them 
and that they want--they just said what they had to say in 
order to get us out.
    We have inspected the language of the agreement, and what 
they are saying actually is no different from what they said 
since the 1990's. You can check the 9/11 Commission report, 
page 111, first, to be precise, and what the Taliban told 
Ambassador Richardson when they said that Osama bin Laden and 
al-Qaeda didn't pose a threat to the United States or the West. 
They are saying the same thing now. As far as I can tell, there 
is nothing in the agreement to verify or ensure that they are 
not lying now as they have lied since the 1990's.
    As one side note, one nerdy side note, we are in the middle 
of processing al-Qaeda's literature in Urdu, actually, which 
documents their role fighting on behalf of the Taliban against 
ISIS in eastern Afghanistan. I am happy to share all that once 
we are done. But why is that important? Well, that type of 
detail is the type of detail we deal in that shows exactly what 
Mike Morell said, that the relationship between al-Qaeda and 
the Taliban is very close, at a personal level. There is 
intermarriage. The 2 are wedded at different points. The Long 
War Journal's position has been that the U.S. Government hasn't 
taken a holistic view of that relationship. Certainly, the U.S. 
military hasn't taken a holistic view of that relationship. For 
many years--I am very jaded at this point. I don't think they 
are going to get it right or actually put the pressure points 
on them to effect the real break between the two because, quite 
frankly, when I have these conversations, a lot of times, the 
policy makers don't even understand what that relationship 
looks like.
    So what we have done is we have set forth a series of 
criteria in an article in Politico and in my previous testimony 
before House Homeland Security and other committees. We said, 
here are the criteria we would look for to affect a real break, 
what that would look like, and I can just--none of those have 
been satisfied by the Doha agreement.
    Mr. Walker. Thank you for answering that. I have got 2 more 
questions, so if we can move on to try to get these in, if 
possible, but the information is very important, so I don't 
want to cut anybody short.
    I want to go back to Ambassador Kaidanow. Given your 
service in Afghanistan, you have had first-hand understanding 
of the violence and the inhumane treatment of the people, 
particularly the women of Afghanistan, under Taliban rule. 
Would you mind taking a moment and remind us of what life was 
like for the Afghan people and provide any recommendations for 
how the United States and the international community can 
pressure the Afghan government to protect its people and their 
rights?
    Ms. Kaidanow. Yes. I mean, you are, I think, quite right. 
The fact of the matter was that certainly under Taliban rule, 
it was a very, very difficult situation, certainly for women. I 
think, generally speaking, you know, the Taliban were not even 
effective as governance. Although what was attractive at the 
time, I think, to the people of Afghanistan was there had been 
so much turmoil and so much sort-of, you know, upheaval that at 
least what the Taliban brought, in their view, was some sort of 
measure of order. Yes, but a measure of order of what nature?
    The problem is, you know, from our point of view, 
obviously, (A), provide safe haven for further terrorist 
attacks, not just there but anywhere, you know, globally that 
these groups operate. But more to the point, though, for the 
people of Afghanistan, it was a disaster, and for the women of 
Afghanistan, it was something so terrible that it is really 
hard to describe.
    So I can tell you that when I was there--so I was there 
from about 2012 to 2013, through 2013. You know, the constant 
refrain from the women of Afghanistan was please don't desert 
us, please don't leave us. This law will go back to where it 
was, and we are deadly afraid. You know, some of that may have 
been rhetoric, but I honestly will tell you, I mean, if I were 
a woman in Afghanistan, I would feel the same way.
    So I think the human rights picture will be, you know, at 
risk. No question. I mean, there just is no question, you know. 
We have to ask ourselves, of course, how much does that matter 
to us? Again, a new way of many, many things we care about in 
the world, and we do. We care about many things. What is our 
priority set? How do we send, you know, that to the top of the 
list or, you know, the No. 2 thing on the list?
    We can't do everything. Is there a way to try and ensure--
and Tom, you know, referenced this in the new, is it going to 
build a, you know, reliable and useful, you know, political 
agreement that is going to stand the test of time, the Taliban 
have to make some sort of meaningful--and ``meaningful'' is the 
key word and very hard to judge--but they have to make to some 
kind of meaningful, you know, promises that they can actually 
keep. I am not so sure I've seen that.
    But, you know, again, that is what the administration needs 
to keep in mind. It is not just a matter of getting the hell 
out. If you get the hell out and the situation remains 
unstable, what you are going to find is you are right back 
where you were, you know, not that long ago, and it does have 
implications for us in terms of our security, even leaving the 
human rights picture aside, which we do care about. So yes.
    Mr. Walker. I yield back, Mr. Chairman.
    Mr. Rose. Thank you, Mr. Walker.
    We will now move on to Ms. Lee from the great State of 
Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much. This 
is a very important hearing. As I listen to the witnesses, I 
hesitate to say that I am traveling down memory lane. Thank you 
for your service to this Nation as well and those witnesses.
    I visited Afghanistan on many occasions, and I certainly 
did not carry the burden of our brave men and women. But I did 
go during the time of the Afghan war, and I am reminded of 
Members of Congress, women Members of Congress that joined in 
the newly-formed government to help give input to the 
constitution which, in essence, gave much power and recognition 
to women. Those women were then ultimately elected to the 
parliament.
    Unfortunately, as we deviated in policy from Afghanistan 
and went to Iraq, those same women, many of them as 
parliamentarians, were murdered in their home districts because 
of the rise of the Taliban, al-Qaeda. Schools that we had 
formed, girls' schools, were destroyed. So we are in an 
important moment as to what our next steps will be.
    I want to raise the question on that backdrop to Mr. Morell 
to take a deep dive into the impact of the Taliban lying in the 
negotiations and where that puts us, and then to Mr. Joscelyn, 
where you have such a strong portfolio and memory of the 
characters, if you will, that played a role. Can you share with 
us the rising characters in the Taliban and al-Qaeda to speak 
to the issue of the disposing of the present government in 
Afghanistan and putting forward a Shia government, which would 
undermine all progress that has been made, and I fear, a 
bloodletting of all of those people who love democracy?
    Mr. Morell, would you proceed with that question that I 
asked you?
    Mr. Morell. Yes, ma'am. So I think the biggest consequence 
of our deal with the Taliban, which would not have been 
possible had they been candid with us about their intentions, 
is that we have empowered them politically. We have given them 
much credibility inside Afghanistan and, quite frankly, outside 
Afghanistan than they deserve. That worries me as they move 
into negotiations with the government of Afghanistan, and, you 
know, it worries me for where we ultimately end up.
    Let me add to that, ma'am, that, look, I understand the 
dilemma that we find ourselves in here. You know, I understand 
that Americans want out. President Obama wanted out. President 
Trump wants out. The American people want us out. I get that. I 
don't want young men and young women fighting for the United 
States without political support. So unless somebody's willing 
to stand up and make a compelling case for why we need to stay, 
then our only alternative is to figure out, if we're not 
there--and believe me, we won't be there for long, even in an 
embassy. If we leave militarily, it won't be long before the 
Taliban takes over, and we won't be there at all.
    So if we are not there, then we are going to have to figure 
out how to collect intelligence on al-Qaeda and ISIS and other 
groups in Afghanistan, from outside Afghanistan, and we are 
going to have to figure out, from a military perspective, how 
to reach out and touch those groups to degrade them if we have 
to. That is not impossible. Obviously, it is more difficult to 
do it from outside than inside, but it is not possible. We did 
it in the FATA. We were not in a FATA in Pakistan, and we 
successfully collected intelligence and successfully degraded 
the enemy in a FATA, so it is not impossible. But we have got 
to figure that out because I think that is where we are headed.
    Ms. Jackson Lee. Thank you very much.
    Mr. Joscelyn, a deep dive into who the characters are but 
as well with the backdrop of what Mr. Morell said and the 
danger that is created for the region in Afghanistan in 
particular.
    Mr. Joscelyn. Congresswoman Lee, let me first say this: I 
think of all the times that I have testified, I think I have 
testified before you more often than any other Member of the 
House of Representatives.
    Ms. Jackson Lee. Yes.
    Mr. Joscelyn. I always say that you cut to the chase 
quicker than anybody, and you certainly did here with the 
question about the top leadership.
    The Ambassador raises an important point, which is exactly 
right, which is the Taliban hasn't shown any willingness to 
compromise on its political objectives, really, in Afghanistan. 
What are those political objectives? Well, Hibatullah 
Akhundzada is the Amir of the Faithful for the Taliban. You may 
have heard that phrase, that title, Amir of the Faithful, 
before. Abu Bakr al-Baghdadi, of course, was the first Amir of 
the Faithful. That is the title that is known to be used by 
caliphs, Muslim rulers over all Muslims. It is absolutely an 
authoritarian title that they have taken upon themselves and 
for Hibatullah Akhundzada.
    That is not the title that somebody takes if they are going 
to take a ministerial post in a new Afghan government, is it, 
right? You are not going to have the Amir of the Faithful who 
is going to run the border security or something for a new 
Afghan government. You know, this is something that speaks to a 
long-standing religious and ideological sort of commitment on 
their part to reinstall the Islamic Emirate of Afghanistan and 
resurrect it to power. That has been their political objective 
all along.
    Now, what is interesting too, I said earlier, that I set 
forth the criteria about what a real break to the Taliban al-
Qaeda would look like. Well, the first thing I said was that 
Hibatullah Akhundzada would renounce, would publicly disavow 
Ayman al-Zawahiri's buyout, his oath of allegiance to him. This 
is a very serious matter for the jihadis. The buyout, the oath 
of allegiance, is something that they say hangs around their 
neck. What it means is that if you violate the buyout, the 
person you are swearing it to has the right to take your head 
off, right, and Zawahiri has sworn his buyout to Hibatullah 
Akhundzada.
    So al-Qaeda, this al-Qaeda network that I mapped out in my 
oral testimony at the beginning, all those entities that I 
mentioned, they have all recognized the religious legitimacy of 
that buyout, that oath of allegiance. Yet to this day, 
Hibatullah Akhundzada has not renounced Ayman al-Zawahiri's 
buyout. So that is a very important point from a theological 
and ideological perspective.
    Now, underneath Hibatullah Akhundzada is a guy named Siraj 
Haqqani, Sirajuddin Haqqani. He is a U.S.-designated terrorist. 
I am sure Mike Morell, in particular, is well aware of him 
because his guys were involved in one of the deadliest 
operations against the CIA ever in December 2009, I think it 
was, when they killed, I think it was 7 or 8 CIA officers, a 
really horrible attack. It was orchestrated by Ayman al-
Zawahiri.
    The Haqqanis have their hooks into all the nasty characters 
in the region. Haqqanis actually bred and incubated al-Qaeda in 
eastern Afghanistan. You go back all the way to the 1980's. 
Haqqani--Siraj's father, Jalaluddin, was one of Osama bin 
Laden's first and earliest benefactors. He is somebody who was 
personally invested in Osama bin Laden's rise. Today, his son 
is the Deputy Amir of the Islamic Emirate of Afghanistan. His 
network is--we can detail at some length all the ties between 
the Haqqani network and al-Qaeda, including the fighting that 
is going on right now. That remains unbroken. There is no 
evidence of a break there. There is all sorts of intermarriage 
and all sorts of confluence of interest there.
    I can go on, but that gives you two examples just of the 
top leadership here where Hibatullah Akhundzada we know has--
there is a blood oath that has been sworn to him by al-Qaeda 
that is unbroken, and Siraj Haqqani is part of a legacy that 
goes back to the 1980's of an unbroken alliance between the 
Haqqanis and al-Qaeda. These are 2 very, very important points 
that I think have not been addressed by the February 29 Doha 
agreement.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chairman. Thank you to the witnesses. As we 
pursue domestic terrorism, we cannot leave these vital--how 
should I say it--information points and potential danger to the 
United States and the world. I look forward to continuing this 
discussion, and thank you all for your service.
    Mr. Rose. Ms. Lee, thank you for the last few decades, 
striking fear into the witnesses of Homeland Security 
testimony. You are absolutely phenomenal. It is an 
opportunity--it is a great opportunity to serve with you.
    Mr. Green, our Ranger, you are up.
    Mr. Green. Thank you, Mr. Chairman, and again, 
congratulations on the newest member of the Rose family. We are 
with you guys.
    My question is, I think, to Mr. Morell. First, let me thank 
all the witnesses for being here and for the Chairman putting 
this together. I served--to give you a little bit of my 
background, I served as a Night Stalker, Task Force 21, Task 
Force 121, Omaha, many others, in both Afghanistan and Iraq, 
worked with other Government agencies on many missions 
downrange. I want to thank you and your people and your 
organization for all that they do for the safety of this 
country.
    My question is about the alignment that we see in the 
Middle East, creating an almost bipolar Sunni versus Shia axis 
and those Shia militia, in particular in Yemen and in Syria. I 
wondered if you or someone could comment on the Shia militia 
and where they are today in this un-Classified setting.
    Mr. Morell. Sure. The Shia militia is in Iraq. The Shia 
militias in general, but primarily in Iraq, pose a significant 
threat to the United States, to our diplomats, and to our 
military, the folks in Iraq. We have seen that time and time 
again. They are linked significantly to the Iranians in terms 
of funding, in terms of weapons, in terms of even training.
    That link between the Iranians and the Shia militia in Iraq 
has been broken a bit as a result of the death of Qasem 
Soleimani. You know, he was extraordinarily hands-on and had a 
tremendous amount of influence with those groups. The new 
leadership of the Quds Force, less dynamic, doesn't speak 
Arabic, less well-known to the west of Iran, doesn't have the 
same clout. I mean, I was just struck recently where he paid a 
visit to Iraq, I think it was his first visit, and he actually 
had to get a visa. Qasem Soleimani never needed a visa to go to 
Iraq.
    So I think there is less Iranian control today over those 
Shia militia. It is not totally gone, but it is still--it is 
still there, but it is less, and that is both a good thing and 
a bad thing. You know, it gives the Iraqi government an 
opportunity to possibly pull them in a little closer, but it 
also creates the opportunity that they do something stupid with 
regard to the U.S. presence in Iraq that even the Iranians 
don't want them to do.
    It is a very serious problem, and, you know, the whole Shia 
terrorism piece, right, is something we don't talk about very 
much. But Hezbollah in particular has significant capabilities 
that, since 9/11, they have decided to stay away from us 
because of what we would do to them if they take a significant 
attack. But we all should remember that prior to 9/11, 
Hezbollah killed more Americans than any other terrorist group.
    Mr. Green. Yes. Thank you for saying that. I want to shift 
gears a little bit but stay in the same place. Again, this may 
be a better question for you, but anyone who wants to chime in. 
Erdogan and some of the activities in northern Syria that have 
been going on, how does that disrupt U.S. security? How does 
that disrupt our efforts to take on Shia militias, Shia militia 
groups, Iran's efforts to again align this Shia access from 
Lebanon all the way around to Yemen? What are your thoughts on 
where Erdogan fits into this and how it is interrupting what we 
are trying to do there?
    Mr. Morell. Yes. Let me ask Tom if he has thoughts on that.
    Mr. Joscelyn. Yes. Well, what is interesting about this 
question is, right now, on the same computer, I have a bunch of 
telegram channels the jihadis are running. One of the hot 
debates is over the relationship between Hay'at Tahrir al-Sham, 
which is in Idlib, and its relationship with Turkey, because 
what HTS, we will call it, what they did was they basically 
came up with a compromise position with the Turks in order to 
allow Turkish forces in Idlib to prevent Assad, Russia, and the 
Iranians from overrunning the province.
    Now, this brings us back to Chairman Rose's question 
earlier. This actually raised a theological issue of 
jurisprudence on their behalf about how close you can get to 
Turkey or how close you can work with them, and that is the 
subject of the on-going dispute because, basically, al-Qaeda 
decided a long time ago they can cut deals with apostate 
governments if it sort-of furthers their long-term objectives. 
There are all sorts of details. We can talk about that. Turkey, 
though, has become at the center of the controversy because of 
everything that is in Idlib. Right now, infighting, another 
round of infighting has broken out between the jihadis in Idlib 
over this issue and related issues.
    The problem I have with Turkey is that too often I find 
them to be duplicitous in all of this. So there were members of 
ISIS, commanders of ISIS, including one of the amirs of Mosul, 
that actually left for Turkey after Mosul fell, and the United 
States Treasury Department and the Iraqi government had taken 
an unusual step of identifying him and his address in Turkey 
from where he was operating because the Turkish government was 
not being cooperative. We can identify other ISIS figures along 
those lines, and we have identified al-Qaeda figures in Turkey 
who have operated there for years. In fact, there is a guy 
named Mohammed Islambouli. He is the brother of Khalid 
Islambouli, the assassin of Anwar Sadat.
    I have Mohammed Islambouli's Facebook page as one of my 
favorite go-tos every day because he would document his journey 
through Istanbul and where he was going. He is somebody I am 
certain came across Mike Morell's radar at CIA through the 
years because CIA has known who he is for a long time. He is a 
fully made man in al-Qaeda. It was always curious to me that he 
was advertising that he was bouncing from block to block in 
Istanbul, Turkey, and the Turks didn't do anything about it.
    So it is that sort of duplicity and problems that you are 
dealing with here. It is very complex, there is a lot to it, 
but that sort-of gives you my lay of the land, anyway.
    Mr. Green. Thank you. It doesn't seem like it is any harder 
than right there, that northern strip of Syria. So thanks.
    Ms. Kaidanow. Do you mind? I would add just maybe like a 
couple of lines on that.
    You know, Erdogan is constantly overreaching, constantly 
thinking that he can manipulate, you know, groups and ideas and 
places that he is not as good as he thinks he is at doing. But 
just the fact that he thinks that means that we need to be 
very, very cautious, again, about how we deal with Erdogan, how 
we deal with Turkey. You know, it was, it is, it remains clear 
that he wants to be the key player in that part of Turkey--and 
I am sorry--in northern Syria to preserve what amounts to an 
offshoring of all of the, you know, refugees that came into 
Turkey that now they can push back out because it is such a 
burden on the Turkish State.
    So there is that aspect of it, not to mention the security 
aspect of, you know, again pushing out borders. He has to be 
good to the Russians for that reason. He has to be--even if he 
doesn't like it, he has to be--he has to do deals, you know, 
obviously with the Syrians who are embedded with the Russians. 
So he is very confident, and that is what he conveyed to our 
President. He is very confident that he can--you know, just 
leave me alone and let me do what I want to do in northern 
Syria; life will be dandy. We have given him an awful lot of 
swag, and that is very dangerous for a whole host of reasons.
    So I don't want to get into too much more into it, but 
just--I mean, I think we have to think of the Erdogan side of 
this, not just the, you know, the ex-realist view.
    Mr. Green. Absolutely.
    Mr. Rose. OK. Thank you.
    We will now move on to Ms. Slotkin from the great State of 
Michigan, who I am sure you all have actually worked with. She 
spent her entire career fighting this fight, and if she wasn't 
a great Member of Congress, we would have had her bump one of 
you to be a witness.
    Ms. Slotkin, you are up.
    Ms. Slotkin. Thank you, Chairman Rose.
    Good to see everybody and, indeed, I have very fond 
memories of working with many--2 of the 3 panelists at least. 
So I guess my quick questions are, you know, Tina, as you were 
saying and Mike referred to, you know, we got out of Iraq in 
2011. I remember very clearly in the winter of 2014, you know, 
the CIA came up for the ``World-wide Threat'' hearing and told 
Congress, I mean, I was at the Pentagon at this time, that we 
are seeing al-Qaeda affiliates, al-Qaeda types kind-of take 
over more towns and more areas in Anbar, and we are worried to 
see them more active. Then by the time June rolled around, they 
had rolled through Mosul. They had taken over, you know, a huge 
swath of territory in Iraq and Syria.
    So I guess my question is, what signs do we have, if any, 
that similar type of behavior is going on and reconstitutioned? 
Maybe I will start with Mike, if you wouldn't mind. Just what 
are some similarities between what we see them starting to do 
now and what we saw them starting to do in early 2014?
    Mr. Morell. You know, I think--so, first of all, Elissa, it 
is great to see you. Congresswoman, I am sorry. I am sorry.
    Ms. Slotkin. That is OK.
    Mr. Morell. It is great to see you, and congratulations to 
you on all you have accomplished since you left.
    So I think, you know, when I think back to the growth of 
ISIS and the explosion, right, it really started with the 
withdrawal from Iraq, and that led to a rebound, an almost 
immediate rebound in al-Qaeda in Iraq. You could almost feel it 
immediately because the pressure came off. The Iraqis--not only 
were we not there militarily to help the Iraqi military deal 
with AQI, but for some reason, the Iraqis stopped all 
cooperation, including intelligence cooperation. You know, I 
guess they wanted to define their sovereignty, you know, in as 
significant way as possible, and all of that led to an 
immediate rebound in AQI.
    Then they look across the border, right, and they see the 
civil war going on in Syria, and they decide that is the place 
to be, right? That is where the fight is, that is where we want 
to be, and they go across the border. The al-Qaeda senior 
leadership in south Asia doesn't like that and tells them not 
to do it but, you know, they do it anyway, and they change 
their names. Al-Qaeda in Iraq operating in Syria isn't a cool 
name, so they changed their name.
    Then they grew, you know, rapidly in Syria because they 
were, (A), fighting, and as you fight, you get better; and (B), 
they were acquiring weapons as they overran Assad's weapons 
depots. So they were getting their hands on some pretty 
sophisticated weapons. They were getting this flow of 
foreigners, right, to come fight with them because it was the 
place to be.
    You know, we were watching all of that, and I say--what I 
tell people is, up to that point, the IC did a pretty good job 
in telling that story and being on top of that. Where we fell 
significantly short was when they came back to Iraq and they 
started to grab territory, we misjudged the capabilities of the 
Iraqi military. You know, we thought the Iraqi military would 
do a better job fighting what is now ISIS, what used to be AQI, 
and they didn't, right. They fell apart, and they broke and 
they ran, essentially. So that is how they got to where they 
got to in terms of the size of their caliphate. So they are 
constrained now, right, in being able to do that.
    I don't know how good the intelligence is today. I don't 
see it, so I don't know how good it is. I would assume we have 
a decent picture into what the ISIS leadership is up to and 
what it is thinking, but they are constrained from doing the 
same thing they did before by the fact that the coalition, 
although less than it was, right, and putting less pressure on 
ISIS than it did before, it is still operating. The fact that 
the Iraqi military, with us there--I would worry again about 
what would happen if we left, but with us there, it is capable 
of dealing with an ISIS that tries to grab territory.
    So I don't see them being able to go down the road they did 
before and being able to move and gain strength in different 
places and being able to, without the United States there, take 
on the Iraqi military. So I am not as worried--I am not as much 
worried about them creating another caliphate and grabbing 
territory.
    I am very worried about them finding safe haven along the 
Iraq-Syria border from which to plan operations in Europe, from 
which to create new propaganda videos. Don't forget, all these 
old ones are still available for people to go look at. Hey, 
that is still there. But to be able to create new ones and 
create a new narrative about their reconstitution and their 
rebound that again motivates young people to go out and people 
in general to go out and conduct attacks on their behalf. You 
know, most concerning, as we talked about, is the ability to 
direct an attack in Europe.
    Ms. Slotkin. Mr. Chairman, I know my time has expired, so I 
will leave it there. But thanks, and great to see Mike and 
Tina, and thanks to all of our witnesses.
    Mr. Rose. Thank you again, Congresswoman Slotkin.
    I think we are all going to take the liberty now of doing a 
second round of questioning. So with that, I do want to give--
if anyone else would like to respond to Congresswoman Slotkin's 
question, I want to give you the opportunity to do so.
    Ms. Kaidanow. If you will allow me just, again, a couple of 
words. First of all, Elissa, congratulations. It is so nice to 
see you. If you ever want, I am happy to kind-of come and talk 
to you about some of the other stuff, you know, not just this, 
but some of the defense stuff that we were doing when I was 
there, but I will leave that off-line.
    But, you know, I think Mike is exactly correct. I hate to 
say this, but this is really--you know, we are trying to 
grapple with not just what is the problem set, but what is 
the--how do you address this? I mean, you know, this is--the 
tough question for us always is OK, so we know. ISIS is a 
threat of one variety or another. Al-Qaeda remains a threat of, 
you know, a very large variety. We have all these other, you 
know, regional issues that we are going to have to deal with. 
We have the potential of a European-based or European attacks, 
all that. What do we do to effectively, at least semi-
effectively, push back on any of that? It is a very tough 
question, very layered, very complex.
    You could stay here all day talking about, you know, some 
of this. But I will say, and this is an uncomfortable answer, 
and it gets right back to the question of, you know, 
Afghanistan and so on, our presence means something. Our 
presence there, just what Mike was describing in Iraq and 
Syria, what we know about Afghanistan, other places where, you 
know, our being there matters.
    Now, it is expensive. It can be very, very costly. It is--
you know, it is all sorts of painful. But on the other hand, I 
will just tell you, you know, let's look at, you know, 
Afghanistan. It is not just, you know, what does the Taliban 
do. No, no. It is what does the government of Afghanistan can 
mean for our Government that is actually, you know, 
substantively going to sit and mean anything. It is what is the 
calculus of the Pakistanis when they look at that, you know, 
situation, and are they willing to invest in a stable 
Afghanistan? What do the Indians do and how, you know, do the 
Pakistanis regard the Indians, because for them, this is just a 
three-way war kind of situation. You know, all sorts of 
regional concerns and regional stability issues that also 
impact on our overall security.
    All this goes right back to, are we there or aren't we 
there? I am not saying--please believe me, I am not saying that 
we have to, you know, sort-of send our people everywhere in the 
world. I am just saying there are costs that you really have to 
think about. If you are willing to accept that cost, that is 
fine. Mike is exactly correct. If we are going to leave 
Afghanistan, we at least need to know how the hell we are going 
to get the intel and how we are going to address the immediate 
terrorism problem because it is going to come.
    But the larger question, I think, is not even just the, you 
know, potential for attack. It is the, oh, my God, what happens 
if the Pakistanis and the Indians start to go at it, the 
Taliban sides--there is that element of the Taliban becomes 
more prevalent in Afghanistan, sides with the, you know, with 
the Pakistanis--I see Mike wants to add to this. So, you know, 
I think that there is a lot of consequence here that we need to 
think about.
    But, you know, we stayed 40, 50, 60 years in Germany for 
some of the same reasons. You know, why is it that the cost of 
a, you know, relatively small presence, which means something 
and says something to, you know, our allies and our partners or 
to our enemies sometimes, is that too much to bear? We are 
going to have to think about those things. So anyway, sorry to 
have to throw the hard--you know, the hard questions into this, 
but it really is important to think about.
    Ms. Slotkin. Thanks, Tina.
    Mr. Rose. Mr. Joscelyn or Mr. Morell, anything you would 
like to add to that?
    Mr. Morell. Yes, sir. I just wanted to add that we tend to 
be--and I would love to know what Tom thinks about this. We 
tend to be focused--when we look at Afghanistan, we tend to be 
focused on the reconstitution of al-Qaeda and the potential for 
attacks against the United States, whether somewhere else in 
the world or, you know, God forbid, in the homeland. But I 
think one of the things that we need to think about is a 
reconstitution of a Taliban state in Afghanistan, the potential 
impact of that on radicalization in Pakistan.
    You know, the influence used to come the other way, right, 
from Pakistan to Afghanistan. Now I worry that if Afghanistan 
ends up where I think it is going to end up, then I worry about 
the influence going the other way and an increase of 
radicalization in Pakistan, which could lead to a disaster 
scenario of a radical government in Pakistan that happens to 
have nuclear weapons.
    Mr. Joscelyn. So if I may add to that just real quick, that 
is exactly right about Pakistan. The big problem here in 
Pakistan and Afghanistan is what I have termed the wheel of 
jihad. So the Pakistani state supports and harbors the Afghan 
Taliban, Afghan-Taliban leadership, which is then in bed with 
al-Qaeda and al-Qaeda-affiliated groups, some of which actually 
attack the Pakistani state and Pakistani civilians. So that is 
why the wheel of jihad that remains sort-of unbroken after all 
these years.
    The problem in the Pakistani calculation, precisely to Mike 
Morell's point there, is that their calculation is that they 
contain this piece indefinitely and that they basically can use 
it to gain control and access over Afghanistan. The problem is 
that when you take one notch down the wheel, when you move from 
Afghan-Taliban senior leadership to the next step over to al-
Qaeda senior leadership, they are already aggressively looking 
at what they are going to do in Pakistan, Kashmir, and the 
region. That is why al-Qaeda and the Indian Subcontinent was 
stood up in 2014. They were saying we are not just about 
Afghanistan. We are looking at the whole Indian Subcontinent. 
So that is inherently an idea that is destabilizing that they 
are trying to accomplish.
    Now, we have also been following their literature, which is 
not often looked at in Urdu and Pashto. Their Urdu literature 
earlier this year for al-Qaeda, they have already repositioned 
it from looking at Afghanistan to saying, no, we are looking at 
the whole region now. So they had a lengthy periodical that 
would come out every month, it was about 120 pages or so in 
Urdu, that was named after the Afghan jihad. That has already 
been repositioned to look at Kashmir and India and Pakistan. 
The naming, the branding, everything, it is all now saying we 
have got--the Americans are leaving, we have won. This a 
victory for the Taliban and our allies in Afghanistan. We are 
going to consolidate the emirate there, but we are looking at 
the whole region.
    So in my oral testimony, I mentioned Asim Umar, who was the 
first head of al-Qaeda in the Indian Subcontinent. His mission 
under Ayman al-Zawahiri was, in fact, to use Afghanistan and 
other safe havens as a place to launch operations and extend 
their networks throughout the Indian Subcontinent, and that is 
going to keep coming.
    But just one other point on Iraq to answer your question 
just for 1 minute. You asked about ISIS in Iraq. One of the 
things that has happened is there is a seam, a political seam 
that has led to a security seam between Kirkuk, the Kurdish 
regional government's area of control, and the Iraqi federal 
government's area of control. ISIS has exploited that routinely 
because, basically, again, wherever there is a vacuum there, we 
know that they are going to find it, and they found it, and 
they have been executing a large number of attacks. They are 
mainly low-scale attacks but not the big, massive operation we 
saw in Hadith or elsewhere in previous years. But they have got 
a steady drumbeat of these attacks going on in Kirkuk, in the 
Kurdish-controlled areas, in Diyala and other areas outside of 
Baghdad, so it is something to keep a look on.
    Just to wrap this up, one of the reasons why--you know, as 
Mike mentioned earlier, that you keep the pressure on them, you 
can degrade them, but they bounce back. One of the reasons they 
bounce back is they are organized as insurgencies, and there is 
all sorts of redundancies and built-in sort-of in these 
insurgencies to basically keep them coming, so that when you do 
knock out the top tier, there are guys right underneath them.
    In fact, you know, the guy who is now the leader of ISIS 
right now, Abu Ibrahim al-Qurashi, otherwise known as Hajj 
Abdullah, right, he has been in the game since al-Qaeda and 
Iraq's formation all the way back to 2003, 2004. How many more 
guys are there like that, you know? I don't think anybody 
really knows, but they have got enough to keep going, that is 
for sure.
    Mr. Rose. Again, thank you all. I think we have time for a 
few more questions. So let me kind-of try to refocus this 
around protecting the homeland and as that relates to 
technology and Afghanistan. I say this as a Member of Congress, 
a New Yorker, and someone who was a platoon leader in 
Afghanistan. The American people cannot fathom us staying there 
forever, so it is already America's longest war. I have got 
buddies who have deployed 4, 5, 6, 7 times there. The area I 
patrolled in Shah Wali Kot is now completely controlled by the 
Taliban. So we also just don't want to be stupid and waste 
blood and treasure.
    Mr. Morell, you hit on a great point, which is that this is 
a global threat, and we have done this in other places without 
acting as a land-holding power. So let's say we do leave 
Afghanistan. What do we do then? How do we utilize the tools we 
have been employing, whether it is in Libya or the 20 other 
countries where we have fought this threat? What then do we do? 
Because the American people should not stand this much longer, 
and I say this as someone who deeply cares about National 
security.
    Then, second, how are these terrorists communicating right 
now, would you say? I think that we have seen progress with the 
major social media companies cracking down on this, the 
establishment of global internet forums to counter terrorist 
resident NGO, the appointment of an esteemed executive 
director, resourcing the problem. Still much more to be done, 
but it seems to me that now the problem really does lie in the 
telegrams, in the video games, and the other forms of 
communications. What do we do about them? How do we go on the 
offensive as it pertains to that issue as well?
    Just in reverse order. Maybe, Mr. Joscelyn, we will start 
with you.
    Mr. Joscelyn. Well, just on the communications piece real 
quick, you know, the issue is social media and other platforms, 
they evolve very quickly, exactly what the Ambassador said 
earlier about the extensive use of their tools and just how 
innovative and how they have been able to evolve so quickly in 
this regard.
    For example, you know, obviously, Twitter was the first 
generation, and Facebook, were the first generations of ISIS' 
foray into the social media world. They migrated very quickly. 
They use Telegram more often than anything else. I can show you 
at some point in time my own computer. I have about 400 jihadis 
channels on Telegram I follow, many of the ISIS channels that 
regenerate, many al-Qaeda channels that don't need to 
regenerate because nobody takes them down, you know they have 
been there for a long time. In fact, earlier last year, the 
European Union--Europol--I am sorry. Europol actually worked 
with Telegram to take down hundreds of ISIS channels.
    Now, what was interesting about this is I have nom de 
guerres and aliases on the channels, with Telegram as well; I 
also operate under my own name. The account under my own name 
was taken down, and it took me about 3 or 4 weeks to convince 
them that, in fact, you know, I am just a guy who works on this 
stuff. I am not somebody who is actually on their side, you 
know. When they reinstated me, I came back, and I was able to 
see what channels existed.
    None of the al-Qaeda channels had been taken down. Many of 
the ISIS channels remained in place. So the sweep got people 
like me but didn't get a lot of the bad actors, so it is an on-
going issue.
    But when they did this, when Telegram and Europol did this, 
and they went to go knock out all of these channels, what it 
created for us was this problem where we now have to follow--I 
now have accounts on platforms called Riot, RocketChat, Hoop. I 
am forgetting some. There are just so many of these now, and 
they are on all of them, and they generate content very 
quickly.
    All of these have--not all of them, but many of them have 
private messaging capabilities, which means you don't even need 
to be in an actual messaging app like WhatsApp or Signal. You 
can go through one of these social media messaging applications 
and you can connect with somebody very quickly and start 
getting instructions or start getting the details on how to 
operate. It has become a complete nightmare from all the people 
I talk to in the counterterrorism world and law enforcement 
world, a complete nightmare for them on that. I will leave it 
there, but that is how I would address the cyber part of this 
or the communication part of it.
    Mr. Rose. Thank you, sir.
    Ambassador.
    Ms. Kaidanow. Yes. Just in addition on this communication 
thing, absolutely, Tom is right, they are innovative like you 
would not believe. I think there is a good-faith effort being 
made by a lot of the--especially the larger, you know, firms on 
the communication side, you know, the Facebooks, the others, 
but I would [inaudible] what they are using is exactly what was 
described.
    Not only are they using that stuff, but here is the deal. 
We are never going to catch up. We can't do counter content 
because we cannot ever create content fast enough, well enough, 
whatever, to give them something that is going to be meaningful 
to them or trustworthy to them. So that whole effort, as far as 
I am concerned, I am sorry, is not well-used, and our money 
there is not well-used, and we continue to do it. I am not sure 
why.
    I think what you need to be doing is monitoring that stuff. 
But then as an adjunct, as Mike can attest, all intel is a 
conglomeration of many things. You have got the incoming from 
the communications side. You have HUMINT. The HUMINT is also 
what you need to develop because you are going to have to rely 
on somebody to tell you something or at least to give you some 
signal you should be watching X, Y, or Z or whatever.
    There are ways--it is not going to be foolproof ever, but 
you are going to be able--and we are better at this than we 
used to be. It is not to say, again, that we are going to catch 
all the bad guys. We are just not. But there are ways to 
collate, let's say, what we do know, you know, so some of that 
will be successful, and we have to just keep trying to get 
better at that. I think that is the way.
    Tom just demonstrated to you some really cool, innovative 
things he is doing even on, you know, the non-Classified side. 
So I think that, you know, there are ways of addressing this.
    The other thing I would say, though, and again, we go back 
to the presence, no presence, staying, not staying. I don't 
know that we need the kind of presence that we had, let's say, 
the size of presence that we have had in some of the places. I 
think it is possible to have a very small, very targeted 
presence in some of the places that we really hear about, 
Afghanistan being one of them, in which we signal just by 
virtue of this very small group of people. You know, our tail 
tends to be larger than it should be, you know. You don't need 
18 cooks for, you know, a platoon of guys. They are very 
resourceful. They can do what they need to do, especially if 
they are CT-oriented and so forth.
    What you need is, you know, a very, very targeted, very 
small but nevertheless, you know, present bit of business, and 
that is really what you have to decide. Is that worth it to you 
or is it not worth it to you? Because otherwise, you are going 
to be doing both, on the intel side what Mike described, and 
then on the political side, you are going to have to think 
about what the implications are so that you, you know, are 
cognizant that more will have to be done to make up for your 
loss of presence. I just--you know, I think that is an honest 
assessment. It is not a pleasant one, it is not an easy one, 
but it really is the case, so----
    Mr. Rose. Mr. Morell.
    Mr. Morell. Mr. Chairman, I would just add I agree 
completely with the Ambassador and with Tom. You know, in 
particular, the point about the more advanced the technology 
that the bad guys are using in particular with regard to 
encryption, the more HUMINT becomes important, right. The more 
it becomes important to be at one of the ends of the 
conversation, and having a human being there is--becomes more 
important in this new technology world we are in. So I think 
that is an important point.
    You know, with regard to Afghanistan, I think we have to 
think about how we leave, you know. I think we are leaving. 
That is my judgment. I don't think it is necessarily the right 
answer, but I think that is what is happening. So I think we 
need to think about how we leave, and I would strongly 
encourage us not to empower and embolden the Taliban as we do 
so, No. 1.
    No. 2, we really have to think about not only our presence 
there, but also the financial assistance that we provide to the 
Afghan government, which is well over $5 billion. Don't know 
the exact number.
    But, you know, pulling our forces out is one thing. Taking 
away that financial assistance? I believe the Afghan government 
would collapse overnight without that financial assistance. So 
nobody talks about that. I don't know where that stands in the 
negotiations or how the administration is thinking about it. I 
just don't know, but it is incredibly important that that money 
continue to flow even if the troops are out.
    Then, as I said, we are going to have to figure out how we 
collect intelligence and how we are able to reach out and touch 
them, and I think we have got to think about both partners, 
particularly on the intel side. On the military side, we have 
got to think about, OK, where do we do that from? What are the 
platforms? You know, are they sea-based? Are they in central 
Asia, central Asia-based? Where are those platforms going to 
be? I think the intel piece is actually easier than the action 
piece in terms of taking care of the problem once you are not 
there anymore.
    Mr. Rose. Thank you again.
    Mr. Walker.
    Mr. Walker. Thank you, Chairman. I do have one more 
question for Mr. Joscelyn, if I could get that in.
    In your testimony, you suggest that there has been a 
decade-long reduction in U.S. counterinsurgency activities in 
Iraq, Syria, Afghanistan, and Northern Africa, and that these 
activities have been placed with more of an ad hoc targeting 
strategy. Without committing more U.S. Forces to the 
battlefield, I would like to know what recommendations you 
might have to improve intelligence collection and 
counterterrorism targeting to ensure a sustained pressure 
campaign against these terror organizations.
    Mr. Joscelyn. Well, thank you for the question, 
Congressman. What I would say is, you know, there is a lot of 
talk these days about endless wars, and believe me, I get it. I 
never thought that I would be covering this stuff for as long 
as I have, but I don't have any skin in the game like others do 
or deployed to Afghanistan over and over again or other areas, 
so I have a tremendous amount of respect for them and their 
families. I understand that there are a lot of people who are 
frustrated and just want out.
    What I would say is, when you look at the big picture, the 
United States shifted away from the large-scale 
counterinsurgency platform of a decade ago. It really ended 
around 2011, 2012. At the peak, we had about 200,000 U.S. 
service members in Iraq and Afghanistan. When I first did this 
assessment last year, the number was less than 30,000 across 
Afghanistan, Iraq, and Syria. I think today it is less than 
20,000.
    My view is I don't think we can go to zero in all these 
areas and still have intelligence collection, still have the 
capacity to go get terrorists, go get the guys that I am 
talking about in my oral testimony and that you see in my 
written testimony. I think we are going to need some sort of 
footprint, and that is the problem right now is I don't think 
that the talks are really aimed at what it should be, which is 
what is the right size of this sort of footprint overseas.
    Afghanistan provides all sorts of challenges going forward. 
You know, as we have said, the U.S. military, you know, has had 
a hard time tracking al-Qaeda in Afghanistan all these years. 
We have had many conversations along these lines, even with 
larger number of forces there. I think it is going to get even 
more difficult if we fully depart from the country, which I 
think I agree with Mike Morell and I said publicly, I think it 
is coming.
    In that vein, I would get the agreement that was signed 
with the Taliban on February 29, and I would look particularly 
at section 1, subclause F. What that clause says is that the 
United States, not only after it says we are leaving 
Afghanistan, it says the United States will not use military 
force or even threaten military force against Afghanistan going 
forward after the U.S. withdrawal.
    That agreement, in effect, taken at face value, says the 
United States doesn't have the right to protect itself and 
defend American interests and Americans going forward from the 
emergence of counterterrorism threats in Afghanistan. It is one 
of the clauses that hasn't received any public scrutiny but 
really should. Because even if all you want is for the United 
States to get out of Afghanistan today and leave all the 
troops, nobody should pretend like we are not going to have 
terrorist threats emerging from that region going forward 
because, of course, we are.
    So I think the big question, really, to my mind, is it 
seems that we have come to this place now where even the lower 
footprint, the smaller footprint is not tenable. In Africa, you 
have around 6,000 American service members who are basically 
working with the French and local partners and others to keep 
these insurgencies at bay and take out high-value targets.
    To the Ambassador's point about, you know, building 
coalitions and working with partners, that is exactly right. It 
is what we should be doing, but unfortunately, right now, 
everything is about just removing American troops as opposed to 
finding stable alliances or stable platforms for going forward. 
Because the bottom line is we are going to have to reintroduce 
American forces in some of these areas once these threats sort-
of metastasize to a point where it becomes obvious to everybody 
that is a threat, just like ISIS did in 2013 and 2014.
    Mr. Rose. Thank you again, Mr. Joscelyn.
    Is there something else?
    Mr. Walker. No. I just yield back to you, Chairman. Thank 
you.
    Mr. Rose. Thank you, Mr. Walker.
    Ms. Slotkin, if you would like to close us out with another 
question.
    Ms. Slotkin. Sure. So just on the conversation of what our 
successful presence looks like abroad. You know, I am a former 
CIA officer, and I did 3 tours alongside the military in Iraq 
and worked on this issue, basically, my entire professional 
life. So I am a big, big believer that you have to keep 
pressure on these terrorist networks or else they do grow back, 
they do expand, they do claim territory, and then they do 
threaten us directly and our allies.
    So I am a big believer, but I am also the representative of 
a lot of people who say is the juice worth the squeeze? You 
know, most people would say I want to know that my Government 
is protecting me from terrorist groups and from attacks on the 
homeland. Absolutely. But then when they see that the cost of 
the counter-ISIS campaign from 2014 to 2019 was $765 billion, 
that is the entire cost of funding our entire Defense 
Department for 1 year. The question is, is the juice worth the 
squeeze? When the request that has come in this year is $845 
billion for Iraq and Syria when we have less than 7,000 forces 
on the ground in those two countries, I am as big a believer as 
anyone, but we have got to be able to look at people with a 
straight face and say that the juice is worth the squeeze.
    So can one of you explain to me, and more importantly to 
our constituents, how the juice is worth the squeeze? If it is 
not, on these present locations, how do we get to a leaner, 
meaner presence that allows us to have that cost-benefit 
analysis that makes sense to the average person?
    Mr. Morell. So maybe I will go first, but I look forward to 
the comments of my colleagues. It is the question. I mean, you 
are at the heart of it, and as I think, there are two answers 
that come to mind for me, Congresswoman.
    One is that I think it is incumbent upon our political 
leadership to include Members of Congress to make the case that 
the threat remains and that the threat is dangerous and that we 
need to protect ourselves. You know, I have a particular 
political philosophy. I don't know if it is widely shared, but 
my view is that political leaders need to lead, not follow; 
lead their constituents, not follow them, but that is for 
another debate. So I do think it is incumbent upon the 
President and Members of Congress to tell the American people 
exactly what the threats are and why it is important that we 
stay focused on them. So that is one.
    Two is that is--the figures you cited, that is way too much 
money for the number of troops we are talking about. That is 
shocking to me that that is the number. If I were the 
President, I would send them back to the drawing board and have 
them resize that number, because it sounds outrageous to me.
    But I think the more important point to me is as I would 
think about how to structure our ability to both spy on and 
then degrade these groups, I would want to do it as a 
coalition. So I would want to bilaterally on the intelligence 
side use as many partners as we can use to get the information 
we need. As you know, there are partners we can count on, and 
there are some partners we can't, but I think we should rely on 
our partners as much as we can to collect the intelligence we 
need. Then I think we should rely on our partners as much as we 
can to actually action those targets and that we, the United 
States of America, only action targets when we absolutely have 
to, when there is no other choice.
    So, you know, I look at some parts of the world where U.S. 
Special Forces have been able to train local partners to be 
fairly effective against the radicals who happen to live in 
their countries. I think that is a great model. I think we 
should be very thankful to the French government for what it 
has been able to do in Africa, in West Africa, and that should 
be a model, right, where we encourage our partners to actually 
take action that if they didn't take, we might have to take.
    So I think we really have got to think hard about what does 
a coalition look like to do both the intelligence piece and the 
degradation piece, because I don't think we can justify the 
numbers even with a truthful and candid evaluation of the 
threat.
    Mr. Joscelyn. So, you know, the Defense Department budget 
is [inaudible] figures, and part of what I learned is that 
transparency is not always forthcoming and that their 
categories are fuzzy. So I strongly encourage Congress, of 
course, to continue its oversight efforts, and some effort 
within the Defense Department to classify portions of the 
budget or parts of the budget, I just don't agree with that. I 
think the American people need to know how much money is being 
spent and what it is being spent on.
    Now, my understanding of this is that, you know, a lot of 
the wasteful spending--although I am sure there is absolutely 
wasteful spending on what I will call the 9/11 wars for sure in 
Afghanistan, Iraq, and elsewhere. Absolutely. A lot of the 
wasteful spending is on these big defense platforms it may not 
even be necessary to use going forward. You can see this in 
this new book, The Kill Chain, by Chris Brose, who used to work 
for the Senate and Senator McCain, which goes into great 
detail. He has all sorts of detail that I didn't have which 
really explains how this wasted money on basically big, high-
end weapons didn't really make any sense for the threat 
environment we are in.
    You can also look at Anthony Cordesman for CSIS. He has an 
announcement he does of the budget, the defense budget, and he 
tries to break it down in as much detail as he can. What he has 
shown, to my satisfaction, is that, basically, the 9/11 wars 
became a priority part of the defense budget a long time ago. 
So I think, you know, he said, for example, in Afghanistan, it 
is still a lot of money. I am not saying there isn't waste, 
there is a lot of waste, but it is about $30 billion a year now 
out of over $700 billion in total budget and maybe even less 
than that. The projections are showing it is going to be less 
than that.
    So, overall, I think 9/11 wars don't cost the lion's share 
of the defense budget, but there is still money to be trimmed 
there. I am sure there is still waste, absolutely. You can go 
through that.
    On Iraq, Congresswoman, what number did you say for the 
Iraq number? Was that 845? How much was that, exactly?
    Ms. Slotkin. So the fiscal year 2021 request for the 
Department of Defense, and I am on the Armed Services 
Committee, is $845 million.
    Mr. Joscelyn. Million. OK.
    Ms. Slotkin. Yes. Not billion.
    Mr. Joscelyn. Yes. I thought so. Yes. I was a little taken 
aback when I heard billion. I said, whoa, you know. No, 
million: $845 million is probably about right. My understanding 
of it is less than a billion. I am sure there is money that 
could be trimmed there as well.
    I think the point, to my mind, is you are asking the 
absolute right question. It is a question I have struggled 
with, and I am not going to claim to have all the right 
answers. I know after covering this for many years, there is a 
lot of wasted money. Sometimes, some places we are much more 
efficient. The United States is much more efficient at using a 
small-scale footprint than in others. The problem going forward 
is I don't think the people are having that right cost-benefit 
analysis question that you are asking right now or debate about 
this. I think the question is much more about just getting out 
of everywhere, and that is certainly what I see the President 
has wanted to do for quite some time. Thanks.
    Mr. Rose. OK. So with that, I do just want to thank our 
witnesses for their absolutely invaluable testimony, and of 
course, your extraordinary service. You have really dedicated 
your lives and your careers to this fight, and we are just 
extraordinarily grateful, Democrats and Republicans, for all 
that you have done for this country.
    So the Members of the subcommittee may have additional 
questions for the witnesses. We ask that you respond 
expeditiously in writing to those questions. Without objection, 
the committee record shall be kept open for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 12:59 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
